<html>
<title> - HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2002

                               __________

                           Serial No. 107-162

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

84-814              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                        Justin Paulhamus, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 25, 2002...................................     1
Statement of:
    Bakas, Nicholas S., chief public safety officer, city of 
      Albuquerque................................................   127
    Busboom, Stanley L., division leader, Security and Safeguards 
      Division, Los Alamos National Laboratory...................   140
    Castleman, Ron, Regional Director, Region VI, Federal 
      Emergency Management Agency................................    61
    Dean, Steven M., Assistant Special Agent in Charge, 
      Albuquerque, NM, Federal Bureau of Investigation...........    71
    English, Thomas L., cabinet secretary, New Mexico Department 
      of Public Safety...........................................   123
    Horn, Brigadier General Randall E., Adjutant General, New 
      Mexico National Guard......................................   133
    Johnsen, John-Olav, Senior Technical Advisor for Bioscience, 
      National Nuclear Security Administration, U.S. Department 
      of Energy..................................................    95
    Nokes, K. David, director, systems assessment and research 
      center, Sandia National Laboratories.......................    52
    Resnick, I. Gary, program manager, biothreat reduction 
      programs, Los Alamos National Laboratories.................     6
    Roth, Paul B., M.D., University of New Mexico Health Sciences 
      Center, associate vice president for clinical affairs, 
      dean, school of medicine, professor, emergency medicine....   147
    Sewell, Charles Mack, M.D., State epidemiologist, public 
      health division, New Mexico Department of Health...........   155
    Yim, Randall A., Managing Director, National Preparedness, 
      General Accounting Office..................................    27
Letters, statements, etc., submitted for the record by:
    Bakas, Nicholas S., chief public safety officer, city of 
      Albuquerque, prepared statement of.........................   129
    Busboom, Stanley L., division leader, Security and Safeguards 
      Division, Los Alamos National Laboratory, prepared 
      statement of...............................................   142
    Castleman, Ron, Regional Director, Region VI, Federal 
      Emergency Management Agency, prepared statement of.........    64
    Dean, Steven M., Assistant Special Agent in Charge, 
      Albuquerque, NM, Federal Bureau of Investigation, prepared 
      statement of...............................................    74
    English, Thomas L., cabinet secretary, New Mexico Department 
      of Public Safety, prepared statement of....................   125
    Horn, Brigadier General Randall E., Adjutant General, New 
      Mexico National Guard, prepared statement of...............   136
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Johnsen, John-Olav, Senior Technical Advisor for Bioscience, 
      National Nuclear Security Administration, U.S. Department 
      of Energy, prepared statement of...........................    97
    Nokes, K. David, director, systems assessment and research 
      center, Sandia National Laboratories, prepared statement of    54
    Resnick, I. Gary, program manager, biothreat reduction 
      programs, Los Alamos National Laboratories, prepared 
      statement of...............................................     9
    Roth, Paul B., M.D., University of New Mexico Health Sciences 
      Center, associate vice president for clinical affairs, 
      dean, school of medicine, professor, emergency medicine, 
      prepared statement of......................................   150
    Sewell, Charles Mack, M.D., State epidemiologist, public 
      health division, New Mexico Department of Health, prepared 
      statement of...............................................   157
    Yim, Randall A., Managing Director, National Preparedness, 
      General Accounting Office, prepared statement of...........    30

 
   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                         MONDAY, MARCH 25, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                   Albuquerque, NM.
    The subcommittee met, pursuant to notice, at 8:30 a.m., in 
the University of New Mexico Continuing Education Building 
Auditorium, Hon. Stephen Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn, Wilson and Udall.
    Staff present: J. Russell George, staff director and chief 
counsel; and Justin Paulhamus, clerk.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    We are delighted to be in the territory of Representative 
Heather Wilson. She is one of our outstanding legislators and 
an eloquent speaker. I've watched her, without a note in front 
of her, make a very cogent argument on the floor of the House.
    And I'm glad to see Tom Udall here. Both of you are fine 
representatives from the State of New Mexico.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on the United States. 
Despite the damage and enormous loss of life, the attacks 
failed to cripple this Nation. To the contrary, Americans have 
never been more united in their fundamental belief in freedom 
and their willingness to protect that freedom.
    The diabolical nature of these attacks, and then the deadly 
release of anthrax, sent a loud and clear message to all 
Americans: We must be prepared for the unexpected. We must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of New Mexico, and the good people of Albuquerque, 
to know that they can rely on these systems should the need 
arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the frontlines. We want to 
hear about their capabilities and their challenges. And we want 
to know what the Federal Government can do to help.
    We welcome all of our witnesses, and we look forward to 
their testimony.
    But before that, I would yield time for Ms. Wilson, and 
also Mr. Udall. So, if you have any comments you'd like to 
make, Heather, why, go ahead.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.001
    
    Mrs. Wilson. Mayor Chavez, I wondered if you wanted to--I'd 
yield my time to you, to welcome folks.
    Mr. Chavez. Thank you very much.
    Mr. Horn. We are delighted to have you here.
    Mr. Chavez. Chairman Horn, Congresswoman Wilson, 
Congressman Udall, we want to thank you for coming to 
Albuquerque. We've ordered up a little of everything; we had a 
little snow overnight and by this afternoon, it will be a 
beautiful spring afternoon. So you're seeing the best of our 
community.
    We are the 28th largest community in the United States, 
larger than San Francisco, larger than Miami. People sometimes 
forget that. And importantly for your consideration today, the 
repository of some of the best technologies that we will need 
going into this new age, post September 11th.
    I'm very pleased, on behalf of Albuquerque, to welcome all 
of you here. I want to make sure your deliberations and your 
hearings are as successful as possible. While we're a large 
city, we're still a small town, so I'm at City Hall during the 
day. If there is anything you or your staff need, please call 
on us. We want to make sure that we do everything we can to 
assure your success here today.
    Thank you very much.
    Mr. Horn. Well, thank you very much, from all of us, 
because you've had such hospitality here. What a wonderful 
facility this is for a hearing, so we might come back here 
again. Everybody has been very happy with trying to accommodate 
to us. Thank you very much for coming here. If you'd like to 
stay, you're certainly welcome.
    Mrs. Wilson. Thank you, Mr. Chairman.
    I appreciate your coming here and bringing the subcommittee 
here. I understand that this is part of a nationwide series of 
hearings, in different cities across the country, to look at 
how Federal, State and local governments, and private business, 
as well, are working together to strengthen our capacity to 
respond to terrorist attacks.
    I think there is a lot to be learned here in New Mexico, 
because we have some unique strengths in combating terrorism 
and working together. Of course, we have Los Alamos National 
Laboratories to the north, Sandia National Laboratories here; 
Kirtland Air Force Base; the hub of a very strong research and 
development community. The the University of New Mexico and 
University of New Mexico Hospital, which has the Centers for 
Emerging and Infectious Disease, which does some of the 
country's best research on emerging disease. In addition, we 
have a State health department that's integrated and co-located 
with many of the other facilities we have here.
    From that perspective, I hope there are things that can be 
learned here, from New Mexico, that can apply in other parts of 
the country, and maybe highlight how special New Mexico is. 
When anthrax was confirmed in the House of Representatives, in 
two of our buildings, this last fall, after the House was 
closed for testing, the laboratories on the East Coast were 
kind of overwhelmed with the anthrax attacks, and other cities 
on the East Coast, as well. The Speaker of the House, his 
office, on a Saturday afternoon, called me and said, ``Look, we 
are stretched to the limit for detection capability and 
decontamination capability, and we need some more help. Can you 
get ahold of the labs, or anyone else in New Mexico, to see if 
you can help us?''
    That's how well regarded New Mexico's capability is, and 
New Mexico came to the aid of the Nation at a very difficult 
time. The House has passed bioterrorism legislation; the Senate 
has, as well, and we're now working in Conference Committee to 
work out the final details of a bioterrorism bill that I think 
will strengthen our ability to combat bioterrorism and to 
detect people's attempts to use disease as a weapon of warfare 
or weapon of terror before people get sick.
    I think that's one the great advantages that Sandia and Los 
Alamos have to offer. They've been working for several years on 
continuous monitoring of contaminants in the water, so they can 
detect, in water systems around the country, whether there has 
been contamination before the water gets in the pipes to your 
home.
    They have developed surveillance research, surveillance of 
disease, at Sandia, the RSVP project. And there's a grant 
program in the bill, giving a preference for Federal matching 
funds for combined laboratories, for these medical 
investigators, public health departments and universities, so 
that the people who are doing the job are working together.
    I look forward to hearing from the witnesses today, 
learning more about what works here and what we need to do 
elsewhere, and what the Federal Government can do to assist. I 
thank the chairman, again, for holding this hearing, and I 
particularly thank my colleague from northern New Mexico, Tom 
Udall, for coming down to join us today.
    Mr. Horn. Mr. Udall.
    Mr. Udall. Thank you very much. Chairman Horn, 
Congresswoman Wilson, and Mayor Chavez, it's great to have you 
here today.
    Mr. Chairman, I know that you're on a very aggressive 
national schedule; I note you're stopping at two of the bigger 
cities, San Francisco and you're also going to Arizona. We are 
very pleased you've decided to make a stop here in New Mexico 
and highlight the issues that are before your Government Reform 
subcommittee. We very much appreciate you holding the hearing 
here in New Mexico, and I'm glad that this distinguished panel 
will have the opportunity to tell the Congress what they are 
doing to make New Mexico and the United States safer for our 
constituents.
    Thank you, all of you, for being here.
    Since last September, the importance of the issues we are 
about to discuss here today have been rightly brought to the 
forefront of national debate and consciousness. Multiple layers 
of government authority have begun to undertake the massive 
project of integrating their information, infrastructure and 
communication system into a cohesive unit that will ultimately 
provide for the safety and health of our citizens. As this 
effort progresses, it's important for the Congress to provide 
oversight and to offer as much assistance as possible to those 
who are working to prepare for the unthinkable.
    I am glad that several representatives of local government 
and law enforcement have combined with their Federal colleagues 
to provide testimony in today's hearings. As Heather noted, we 
have Los Alamos witnesses on the panel today, and I can tell 
you that I am very proud of Los Alamos and the role that it has 
played, not only in the identification of the genetic code of 
anthrax, which Heather referred to, but also goods coming into 
this country. There's a huge threat in terms of things making 
it in here that we don't want to come in here, and they are 
doing the kind of research at Los Alamos, and applying the 
technology, that I think is going to make us a lot safer.
    The key to all of this, obviously, are local first-
responders, and the role of these first-responders in the 
response to any attack is central to the successful fulfillment 
of the government's duty to serve and protect. I'm eager to 
hear about their preparations. The cooperation of the Federal 
Government with local first-responders is crucial in the first 
minutes and hours after an attack. It is absolutely necessary 
that our local first-responders have the information, training 
and equipment they need to do their jobs, and this information 
and training often come from the Federal level.
    Without a centralized clearinghouse of information and a 
unified decisionmaking structure, however, the efforts of our 
first-responders will not be as effective as they might 
otherwise be. For this reason, I'm eager to hear testimony 
today regarding efforts at the Federal level to establish 
protocols and procedures, to ensure that the information 
provided to first-responders is properly analyzed and dispersed 
to those who need it, when they need it.
    Again, Mr. Chairman, thank you for being here, and I'm 
eager to hear the testimony of this panel.
    Mr. Horn. Well, I think both of your representatives do a 
wonderful job in Washington.
    Panel one, we will begin with Mr. Gary Resnick, the Program 
Manager, Biothreat Reduction Programs at the Los Alamos 
National Laboratories. We all know that is one of the great 
laboratories of the world. It developed the atomic bomb and 
worked with the University of California on a number of 
research matters.
    With panel one and panel two we will swear in all the 
witnesses, because this is an investigating subcommittee. And 
that's not that you won't tell the truth, but this is the way 
we operate on all of our subcommittees on Government Reform. 
So, if you wouldn't mind standing up, and putting your right 
hands up.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note there are six witnesses, and 
they have confirmed the oath.
    Now, the way we operate is we start down the line with Mr. 
Resnick, and the minute we call your name, your full document 
goes into the hearing record. So you don't have to ask us to do 
it. It's just automatic. So, with that, Mr. Resnick, we're 
delighted to have you here. So please give us your thoughts.

   STATEMENT OF I. GARY RESNICK, PROGRAM MANAGER, BIOTHREAT 
      REDUCTION PROGRAMS, LOS ALAMOS NATIONAL LABORATORIES

    Mr. Resnick. Thank you, Mr. Chairman. Representatives 
Wilson and Udall, it is a pleasure to be here representing Los 
Alamos today. As you mentioned, my name is Gary Resnick, and I 
am the Program Manager of the Biothreat Reduction Programs at 
Los Alamos National Laboratory. I personally have over 20 years 
of experience working to reduce the biological threat.
    First, the word on Los Alamos. Los Alamos is operated by 
the University of California for the Department of Energy's 
National Nuclear Security Administration [NNSA]. The core of 
our mission at Los Alamos has been and continues to be the 
nuclear weapons stockpile, but it's important to note that 
during the lab's nearly 60 years of existence, our work on 
nuclear weapons has enabled us to develop tremendous expertise 
in complementary areas, such as nuclear nonproliferation and 
biological and chemical threat reduction.
    We didn't start thinking about countering the effects of 
terrorism on September 12th; rather, this is something that we 
have been focused on for decades. Because of our years of work, 
we have been able to provide technologies, people and research 
to the response of September 11th.
    Today, I'll reflect on three main areas of response: 
Reducing the global threats of nuclear terrorism; protecting 
the Nation's critical infrastructure; and reducing the threats 
of chemical or biological attacks.
    Los Alamos and the NNSA have been working for the past 
decade to reduce the dangers posed by the threat, in the former 
Soviet Union, of lost or stolen nuclear weapons and materials 
by working with our Russian colleagues to secure nuclear 
weapons and materials at their source, build detection systems 
at borders and transit points, and detect and intercept 
smuggled nuclear materials at U.S. borders and entry points.
    Despite these best efforts, if there were ever a nuclear 
threat to this country, the NNSA and Los Alamos stand ready to 
respond. Los Alamos is active in the Nuclear Emergency Support 
Team, or NEST, the group that would be called to respond in the 
case of a nuclear-related terrorist attack or accident.
    Los Alamos also has significant efforts underway to help 
protect the Nation's critical infrastructure. One that I'd like 
to mention is a joint program with Sandia that Congresswoman 
Wilson is very familiar with, the National Infrastructure 
Simulation and Analysis Center or NISAC. NISAC ties together 
the Nation's largest scientific computational capabilities to 
enable the continuous, reliable operation of our interdependent 
infrastructures, consisting of electric power, oil and gas, 
transportation, water, communications, and emergency services, 
law enforcement, health services, and others.
    Last, I'd like to discuss Los Alamos's efforts in 
biological threat reduction, most of which in support of NNSA's 
Chemical and Biological National Security Program, the CBNP. 
Los Alamos was immediately called upon to provide expertise in 
identifying the strains of anthrax, as Representative Udall has 
mentioned. Los Alamos technology has been applied both in the 
field and in the laboratory, throughout the anthrax 
investigation, and some technologies have already been 
transferred to Federal authorities.
    Second, long before last year's anthrax attacks, Los Alamos 
had been working with Lawrence Livermore National Laboratory, 
in California, to develop a system to detect biological 
attacks. The result, the Biological Aerosol Sentry and 
Information System, or BASIS, was deployed as part of the 
security network at the 2002 Winter Olympics in Salt Lake City. 
The BASIS deployment at the Olympics is a prime example of 
technologies being developed at the Federal level and then 
implemented at the State and local level; in this case, with 
the Utah Department of Health.
    Last, I'd like to highlight a program with an Albuquerque 
focus, called B-SAFER. It's a joint effort of Los Alamos, the 
University of New Mexico School of Medicine, in cooperation 
with the New Mexico State Department of Health. Short for 
``Bio-Surveillance Analysis, Feedback, Evaluation and Response 
System,'' B-SAFER is designed to detect an emerging biological 
threat, whether naturally occurring or the result of a 
terrorist attack. The system combines the collection of 
clinical data, such as signs and symptoms; temperature, cough 
and rash, or laboratory results, with demographic data and 
analytical tools designed to provide early warning to the 
medical and public health community in the event of an unusual 
occurrence.
    I, once again, would like to thank you, in conclusion, 
Chairman Horn, and the subcommittee, for inviting me to 
testify. As you have heard, the Los Alamos National Laboratory 
is heavily engaged in America's efforts to counter-threats of 
terrorism and ensure the security of the homeland. We 
appreciate the continued support of the U.S. Congress in our 
efforts, and look forward to serving the Nation further in 
these important endeavors. Thank you.
    [The prepared statement of Mr. Resnick follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.002
    
    [GRAPHIC] [TIFF OMITTED] T4814.003
    
    [GRAPHIC] [TIFF OMITTED] T4814.004
    
    [GRAPHIC] [TIFF OMITTED] T4814.005
    
    [GRAPHIC] [TIFF OMITTED] T4814.006
    
    [GRAPHIC] [TIFF OMITTED] T4814.007
    
    [GRAPHIC] [TIFF OMITTED] T4814.008
    
    [GRAPHIC] [TIFF OMITTED] T4814.009
    
    [GRAPHIC] [TIFF OMITTED] T4814.010
    
    [GRAPHIC] [TIFF OMITTED] T4814.011
    
    [GRAPHIC] [TIFF OMITTED] T4814.012
    
    [GRAPHIC] [TIFF OMITTED] T4814.013
    
    [GRAPHIC] [TIFF OMITTED] T4814.014
    
    [GRAPHIC] [TIFF OMITTED] T4814.015
    
    [GRAPHIC] [TIFF OMITTED] T4814.016
    
    [GRAPHIC] [TIFF OMITTED] T4814.017
    
    [GRAPHIC] [TIFF OMITTED] T4814.018
    
    [GRAPHIC] [TIFF OMITTED] T4814.019
    
    Mr. Horn. Thank you.
    We now go with another regular witness with this 
subcommittee, and that's Dr. Randall A. Yim, the Managing 
Director, National Preparedness Group for the U.S. General 
Accounting Office. The GAO, as we say, is the forces that we 
depend upon, as Congress, and that we give them months in 
advance to tell us how to put together all of these matters and 
what's the best type of thing that can be done, in terms of the 
hands that we all have to look at in the private sector, the 
States and the cities.
    And we have Mr. Yim here, and we'd like your summary of 
your--because the documents put out by the General Accounting 
Office are often 50 and 100 pages, and we can't do all that 
today, but we can get a good idea of the particular. They have 
put dozens of terrorism documents out for the Congress, and we 
can't get into all of them, but we can start with one.

   STATEMENT OF RANDALL A. YIM, MANAGING DIRECTOR, NATIONAL 
            PREPAREDNESS, GENERAL ACCOUNTING OFFICE

    Mr. Yim. Thank you very much, Mr. Chairman, for your 
confidence in GAO.
    Chairman Horn, Congresswoman Wilson, Congressman Udall, 
Mayor Chavez, members of the committee, on behalf of 
Comptroller General David Walker of the U.S. General Accounting 
Office, I thank you for allowing me to address this critical 
committee on these issues of utmost national importance. I 
applaud your efforts in arranging these regional hearings, to 
hear directly about the concerns of our State and local 
government officials and from representatives of the private 
sector in our communities.
    My messages today, are simple to state, but the goals they 
articulate remain difficult to accomplish. First, although we 
can never be 100 percent secure from terrorist attack nor 100 
percent prepared to respond, we can be better prepared and more 
secure.
    Second, to become better prepared and become more secure, 
we will need a comprehensive national strategy that builds upon 
the tremendous courage and resolve demonstrated by our Nation's 
people following September 11th, and which binds together all 
levels of government with the private sector and the people 
that the government serves, to form an interlocking shield 
against terrorism and a mutually supportive quick-reaction 
response team should another attack occur. Everyone cannot do 
everything, and everyone cannot and should not do the same 
things. Instead, we must augment, foster and maintain what 
particular governments do best, and what the private sector and 
local communities do best. Third, to fashion such a strategy, 
we will need to identify the right questions to ask and 
discover those key enablers to the creation and implementation 
of our national strategy. Is this better information sharing in 
IT architectures? This is perhaps one of the most critical 
enablers. Is it recapitalization of specific critical 
infrastructure, such as power distribution grids or our 
transportation systems? Is it a focus on future capital needs, 
so that we begin to create the type of skill sets we will need 
in the future to effectively fight terrorism?
    We will need to discover those roadblocks that must be 
overcome or mitigated along the way. We will need to discover 
an investment strategy that maximizes the use of the finite 
fiscal and human capital resources, so that our national 
strategy is both supportable and sustainable. Unfortunately, as 
we all know, this war against terrorism will not be won in a 
single battle nor in a few short years.
    Fourth, we must acknowledge that any national strategy 
lacking measurable objectives, measurable performance 
indicators, and accountability mechanisms is not sustainable. 
As noted by Kennedy School of Government Professor Richard 
Falkenrath, who is now a key member of the Office of Homeland 
Security, this is because of a lack of performance indicators 
to private policymakers of the information they need to make 
rational resource allocations, and program managers are 
prevented from measuring progress.
    Fifth, we need to be mindful of the consequences of the 
actions we have and will take to prevent further attacks, and 
to respond to attacks should they occur. We must not only look 
at the direct costs of our actions, but at the secondary 
impacts that result. For example, we can measure and budget the 
cost of new irradiation equipment for our postal offices, but 
can we measure and budget for those secondary impacts, such as 
the elimination of mail-order film processing or mail shipments 
of pharmaceuticals? We must look to whether our well-intended 
actions will cause what the terrorist attacks could not.
    For example, it is hard to blowup every post office in the 
United States, but perhaps not so hard to weaken the financial 
position of the U.S. Postal Service and perhaps more 
effectively attack such a critical service provider. We must 
analyze our efforts for greater security with a mind for their 
impacts upon our quality of life, our precious civil liberties, 
our rights to privacy and the freedom to travel and worldwide 
commerce that we value, and which form a vital part of the 
fabric of the greatness of this country.
    As I stated, these goals are simple to say, but hard to 
accomplish. We have not yet even identified all of the 
questions that need to be asked, and clearly, we do not have 
all of the answers. But although many things are not crystal 
clear, one thing is certain: State and local governments, 
private sector and local communities, all play key roles and 
must intimately be involved in the preparation of our national 
strategy.
    Hearings such as this one today will allow all of us to 
hear how the Federal Government can effectively aid our State 
and local governments and communities and the private sector, 
so that we design a national strategy that truly serves the 
needs of real first-responders, those actually on the 
frontline, should another attack occur, and those upon whom it 
will depend to take those initial actions. It is only by this 
close coordination with our State and local communities can we 
begin to address the question on the minds of many: Are we 
winning this war on terrorism?
    But remember, this is not a pass-fail test; this is not a 
quick fix, nor a single victory that will end our efforts. Let 
me suggest that the better question is not are we winning, but 
rather how secure and prepared are we, and how secure and 
prepared should we be?
    In conclusion, Mr. Chairman, let me emphasize the 
commitment of the U.S. General Accounting Office to assist 
Congress to the best of our abilities, in whatever ways we can, 
on this issue of critical national importance. We hope that GAO 
can assist the entire Nation in answering these key questions 
and meeting the challenges ahead. Thank you very much, and I 
stand ready to answer questions.
    [The prepared statement of Mr. Yim follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.020
    
    [GRAPHIC] [TIFF OMITTED] T4814.021
    
    [GRAPHIC] [TIFF OMITTED] T4814.022
    
    [GRAPHIC] [TIFF OMITTED] T4814.023
    
    [GRAPHIC] [TIFF OMITTED] T4814.024
    
    [GRAPHIC] [TIFF OMITTED] T4814.025
    
    [GRAPHIC] [TIFF OMITTED] T4814.026
    
    [GRAPHIC] [TIFF OMITTED] T4814.027
    
    [GRAPHIC] [TIFF OMITTED] T4814.028
    
    [GRAPHIC] [TIFF OMITTED] T4814.029
    
    [GRAPHIC] [TIFF OMITTED] T4814.030
    
    [GRAPHIC] [TIFF OMITTED] T4814.031
    
    [GRAPHIC] [TIFF OMITTED] T4814.032
    
    [GRAPHIC] [TIFF OMITTED] T4814.033
    
    [GRAPHIC] [TIFF OMITTED] T4814.034
    
    [GRAPHIC] [TIFF OMITTED] T4814.035
    
    [GRAPHIC] [TIFF OMITTED] T4814.036
    
    [GRAPHIC] [TIFF OMITTED] T4814.037
    
    [GRAPHIC] [TIFF OMITTED] T4814.038
    
    [GRAPHIC] [TIFF OMITTED] T4814.039
    
    [GRAPHIC] [TIFF OMITTED] T4814.040
    
    [GRAPHIC] [TIFF OMITTED] T4814.041
    
    Mr. Horn. Thank you.
    The next witness, I've asked Representative Wilson to 
interview him. She's a scientist and he's a scientist, and a 
very distinguished one. So I want a scientist talking to a 
scientist.
    Mrs. Wilson. Mr. Chairman, while I survived a bachelor of 
science degree as an undergraduate, I would not call myself a 
scientist, although I am a science fair mom.
    It is my pleasure to introduce David Nokes, who is an 
amazing man, and he has made tremendous contributions to this 
country and to our security. Mr. Nokes was laboratory manager 
of the year in 1994, and has also been involved in running the 
Cooperative Measures Program, working with the former Soviet 
Union, trying to secure nuclear materials and other things in 
the former Soviet Union.
    But I think probably the greatest measure of his real 
contribution in this area is in the aftermath of the September 
11th attack, he was named as the single point of contact for 
Sandia National Laboratories for getting Sandia technologies 
where they were needed, whatever part of government, wherever 
they needed to go, and made tremendous contributions to the 
community and to the country.
    It's really a pleasure to have you here.

 STATEMENT OF K. DAVID NOKES, DIRECTOR, SYSTEMS ASSESSMENT AND 
         RESEARCH CENTER, SANDIA NATIONAL LABORATORIES

    Mr. Nokes. Thank you, Congresswoman Wilson, Mr. Chairman, 
Representative Udall. It's a pleasure to be here, and I 
appreciate the opportunity to testify.
    Sandia is one of the three NNSA laboratories, along with 
Los Alamos and Lawrence Livermore, and we bring to the table a 
great deal of national security research and development, and 
that's what I'll talk about today.
    First, Sandia was privileged to be able to provide 
technology to some of the important homeland security problems 
that emerged post September 11th. We had over 100 requests from 
the government to provide technology, and we responded to most 
of those. And the list of people who came to our door is almost 
everyone in government. There's the military, for help in 
Afghanistan; the CIA, for technical support for all of the 
technical problems that emerged post September 11th; the post 
office, to talk about anthrax remediation; the EPA; and of 
course, the DOE and NNSA.
    We provided vulnerability assessments, in the week after 
the attack, for all of the DOE and NNSA facilities, trying to 
understand if there were particular vulnerabilities that would 
be susceptible to terrorist attacks on the Nation like on 
September 11th.
    It is worth noting that most of the technologies we offer 
are the result of work done well before the tragic events of 
September 11th. They were the result of the national security 
focus of the laboratory and the continuing support of these 
activities by NNSA and DOE, by other government sponsors 
through our ``Work for Others'' program, and by the investments 
made by Sandia management in our energy-directed research and 
development.
    On the back table, you will see a number of the results of 
this investment strategy with our internal focus on research. 
We have foams that were used to remediate the House buildings. 
There is a detector that is used with commercial explosive 
systems to allow a commercial product to have enough 
sensitivity to work in airport environments. And there are 
nuclear sensors. We have worked for many, many years to try to 
understand how one can detect nuclear material and detectors 
that would be a threat to our country, and those devices also 
were provided by not only Work for Others sponsors and DOE, but 
also our internal research.
    Unlike other problem areas, such as treaty verification, 
arms control, and energy research, no government agency has a 
focus on investments for homeland security technology. The 
investments that are made are all tactical, trying to serve 
current problems, very near-term problems, harvesting and 
exploiting the tech-base of the laboratories, but they don't 
extend it. And then, there is the longer-term, high-payoff and 
perhaps high-risk work that will have to be done if we're going 
to have adequate homeland security that's affordable.
    It's been suggested that the NNSA become a resource to the 
Office of Homeland Security in this mission. It's consistent 
with other R&D of NNSA, and would align well with the missions 
and capabilities of the laboratories and NNSA.
    Another point I'd like to make is the ease with which we 
work across government agencies. One of the fundamental 
problems we have is transitioning technology to the problems of 
government; the tech transfer, if you will, within the 
government. Right now, about a quarter of Sandia's work is for 
other government agencies, and sometimes the processes that 
allow this to happen are clumsy, cumbersome, and could be 
improved, and we'd like to be able to respond to Governor 
Ridge's top priorities more easily.
    Finally, I'd like to point out that Sandia works closely 
with State and local governments in the transfer of technology. 
We have a group that designs technology to render safe bombs, 
including terrorist bombs. We have made that equipment 
available to first-responders, and we have trained over 600 
local first-responders, including about 20 bomb technicians 
here in Albuquerque. We also participate with the local 
emergency planning group, and at Los Alamos, we have our NEST 
and other groups available, through the emergency response 
structure of the country, to respond to nuclear incidents.
    Thank you for my opportunity to testify today, and I'd be 
happy to answer any questions.
    [The prepared statement of Mr. Nokes follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.042
    
    [GRAPHIC] [TIFF OMITTED] T4814.043
    
    [GRAPHIC] [TIFF OMITTED] T4814.044
    
    [GRAPHIC] [TIFF OMITTED] T4814.045
    
    [GRAPHIC] [TIFF OMITTED] T4814.046
    
    [GRAPHIC] [TIFF OMITTED] T4814.047
    
    [GRAPHIC] [TIFF OMITTED] T4814.048
    
    Mr. Horn. Thank you.
    Our next presenter is Mr. Ron Castleman. He has appeared 
before this subcommittee, and he has a broad governmental look 
at the floods and all of the rest of the things that go with 
the Federal Emergency Management Administration. And he is the 
responsible regional director, appointed by President Bush, in 
June 2001, and his States are Arkansas, Louisiana, New Mexico, 
Oklahoma, and Texas. And he comes out of the private sector, 
especially from the computer language research groups, and 
others. So he has great experience on a lot of these problems.
    So, Mr. Castleman, we're glad to see you again.

   STATEMENT OF RON CASTLEMAN, REGIONAL DIRECTOR, REGION VI, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Castleman. Good morning, Mr. Chairman, and Congressmen 
Udall and Wilson. We're glad to be here.
    As you said, I'm Ron Castleman, Regional Director for 
Region VI of the Federal Emergency Management Agency. It's a 
pleasure to be here today to discuss how FEMA is assisting 
State and local governments to prepare for potential terrorism 
attacks.
    FEMA's mission is to lead the Nation in preparing for, 
responding to, and recovering from disasters. Our success 
requires close coordination with local, tribal, State and 
Federal agencies and volunteer organizations. The Federal 
response plan outlines the process by which Federal departments 
and agencies respond as a cohesive team to all types of 
disasters in support of State, tribal and local governments. 
This plan has been tested on numerous occasions since its 
adoption in 1992, and the Federal Response Plan again worked 
well in response to the terrorist events of September 11, 2001.
    FEMA's preparedness programs provide financial, technical, 
planning, training, and exercise support to State, local and 
tribal governments. The programs are designed to strengthen 
capabilities to protect public health, safety, and property, 
both before and after disaster strikes.
    As you know, the Gilmore Commission issued its second 
report in December 2000, stressing the importance of giving 
States and first-responders a single point of contact for 
Federal training, exercises, and equipment assistance. The 
commission's third report included recommendations to address 
the lack of coordination, including proposals to consolidate 
Federal grant program information and application procedures 
and to include first-responder participation with Federal 
preparedness programs. These findings and recommendations have 
been echoed in other commissions and GAO reports, by the first-
responder community, and by State and local governments.
    On May 8, 2001, the President tasked FEMA Director Joe 
Allbaugh with creating the Office of National Preparedness 
within FEMA. The ONP mission is to provide leadership in the 
coordination and facilitation of all Federal efforts and to 
assist State and local first-responders and emergency 
management organizations with planning, equipment, training and 
exercises to build and sustain our capability to respond to any 
emergency or disaster, including a terrorist event.
    The President's formation of the Office of Homeland 
Security further provides the coordination of Federal programs 
and activities aimed at combating terrorism. FEMA is working 
closely with Director Ridge, the OHS, and other agencies, to 
identify and develop the most effective ways to quickly build 
and enhance domestic preparedness for terrorist attacks.
    This January, the President took another important step to 
strengthen first-responder efforts to prepare for and respond 
to incidents of terrorism. The First Responder Initiative in 
the President's 2003 budget calls for $3.5 billion, most of 
which will be distributed to States and local jurisdictions for 
planning efforts, critical equipment, and to train and exercise 
personnel. FEMA's Office of National Preparedness will 
administer these grants.
    The ONP will also work with our Federal and State partners 
to coordinate all terrorism-related first-responder programs, 
to begin addressing some of the lessons the first-responder 
community learned on September 11th. The ONP will develop 
national standards for interoperability and compatibility in a 
number of areas, including training, equipment, mutual aid, and 
exercising. The first-responder grants, coupled with these 
standards, will balance the needs for both flexibility and 
accountability at the State and local level.
    With respect to New Mexico, we continue to work closely 
with the New Mexico Department of Public Safety in all hazard 
emergency management. FEMA provides grant funds to assist the 
State with planning, training, and exercising for natural and 
technological hazards, as well as incidents of terrorism. We 
have delivered our Comprehensive Hazardous Materials Capability 
Development Program to nine New Mexico communities, including 
several Indian pueblos.
    Last year, our regional office recognized the need to take 
terrorism preparedness training and exercises to communities 
that did not make the Nunn-Lugar-Domenici population criterion. 
We worked with the city of Las Cruces and Dona Ana County, and 
will continue this activity with another New Mexico community 
this year. Both our HAZMAT and terrorism preparedness 
activities are designed to bring together a cross-section of 
first-responders, fire and rescue, emergency medical, police 
and sheriff's departments, as well as emergency managers and 
hospital staff.
    As you are aware, New Mexico is home to some very unique 
Federal resources: Los Alamos and Sandia National Laboratories, 
the Nimitz Nuclear Weapons School, and the Waste Isolation 
Pilot Project, among others. We have partnered with these 
organizations in the past and look for more opportunities to 
combine our efforts in support of community readiness in New 
Mexico, and across the country.
    In conclusion, FEMA is well prepared and equipped to 
respond to terrorist disasters. We are strengthening our 
preparedness efforts now, so that State, tribal and local 
governments and first-re-
sponders are well prepared for all disasters and emergencies, 
including incidents of terrorism. Continued coordination among 
all levels of government will ensure a safer America.
    Thank you for your time, and I'd be happy to answer any 
questions.
    [The prepared statement of Mr. Castleman follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.049
    
    [GRAPHIC] [TIFF OMITTED] T4814.050
    
    [GRAPHIC] [TIFF OMITTED] T4814.051
    
    [GRAPHIC] [TIFF OMITTED] T4814.052
    
    [GRAPHIC] [TIFF OMITTED] T4814.053
    
    [GRAPHIC] [TIFF OMITTED] T4814.054
    
    [GRAPHIC] [TIFF OMITTED] T4814.055
    
    Mr. Horn. Thank you very much.
    And I'd now ask Representative Wilson to introduce our next 
presenter, Mr. Dean.
    Mrs. Wilson. Thank you, Mr. Chairman.
    It's a real pleasure to have Steven Dean with us here. He's 
been in Albuquerque as the Assistant Special Agent in Charge of 
the FBI for a little over a month.
    We are very happy to have you here, even though you are 
formerly a Marine Corps officer. Thank you very much for coming 
today.

STATEMENT OF STEVEN M. DEAN, ASSISTANT SPECIAL AGENT IN CHARGE, 
        ALBUQUERQUE, NM, FEDERAL BUREAU OF INVESTIGATION

    Mr. Dean. Thank you, Congresswoman Wilson. Good morning, 
Chairman Horn, Congressman Udall, and members of the 
subcommittee. I appreciate the opportunity to appear before you 
this morning, and discuss terrorism preparedness, including 
terrorism threats posed by attacks including nuclear, 
biological and chemical agents. I'll also describe measures 
taken by the FBI and our law enforcement partners to address 
these threats.
    As Attorney General John Ashcroft stated recently, ``We 
must develop a seamless relationship with State and local law 
enforcement.'' The FBI in Albuquerque, which is responsible for 
the entire State of New Mexico, has embraced this philosophy 
for several years. All terrorist threats received by 
Albuquerque FBI are immediately disseminated to New Mexico's 
law enforcement community. We participate in a group comprised 
of the heads of the local, State and Federal law enforcement 
agencies in a monthly breakfast, and we discuss pertinent 
issues with our partners, and the issues are immense.
    The State of New Mexico, as you all know, is the fifth 
largest State in the Nation and shares 180 miles of border with 
the Republic of Mexico. We possess some of the Nation's most 
attractive targets. Congresswoman Wilson mentioned Los Alamos 
and Sandia National Laboratories. White Sands Missile Range, 
Air Force Research Laboratory, Waste Isolation Pilot Project, 
the very large array, Intel, Sumitomo, and the list goes on and 
on.
    I'd like to bring to your attention several initiatives 
already established in New Mexico to address these terrorist 
threats. They are the Weapons of Mass Destruction Working 
Group, the Domestic Terrorism Working Group, and the Joint 
Terrorism Task Force. These programs were established in 
concert with local, State and Federal agencies, to include the 
New Mexico Department of Public Safety and the Department of 
Health. Each agency participating in these programs 
participated in the development of guidelines for prevention, 
response, investigation and training in regards to a variety of 
terrorist acts.
    First, the Domestic Terrorism Working Group. This group was 
established in 1996, with representation from 45 local, State 
and Federal departments and agencies. Meetings are held each 
month at the U.S. Customs Air Branch at Kirtland Air Force 
Base. Since September 22, 2001, just 11 days after the tragic 
attacks, these meetings have included international terrorism 
information and alerts.
    The Weapons of Mass Destruction Working Group was 
established in 1998, with representation from over 20 local, 
State and Federal departments and agencies. Again, meetings are 
held monthly. Albuquerque FBI has conducted 46 weapons of mass 
destruction presentations, participated in 55 weapons of mass 
destruction meetings, and 13 weapons of mass destruction 
exercises, over the past 22 months, with our local, State and 
Federal partners.
    The Joint Terrorism Task Force, which was established in 
March 2001, is comprised of sworn law enforcement members of 
the Domestic Terrorism Working Group, with nine full-time 
investigators representing their agencies.
    Several representatives from the above groups are currently 
participating in the development of the Terrorism Appendix to 
the State of New Mexico All-Hazard Emergency Operations Plan. 
This is being spearheaded by the Department of Public Safety 
Office of Emergency Management. The Terrorism Appendix provides 
guidelines for response to incidents that are determined to be 
terrorism-related.
    To establish a seamless communication path with various 
agency heads, our office recently met with Mr. Tom English, who 
is New Mexico's Director of Homeland Defense, and David 
Iglesias, who is the U.S. Attorney. Last week, I joined the 
Joint Terrorism Task Force members to provide a presentation to 
Martin Chavez, the mayor of Albuquerque.
    As you are well aware, each FBI Division has a Weapons of 
Mass Destruction coordinator, whose taskings are to maintain 
liaisons with fire, HAZMAT, law enforcement, public and 
emergency health personnel, whose role is to respond to 
incidents resulting from weapons of mass destruction terrorism. 
We actively participate in the education of all personnel who 
share the FBI's mission to prevent, deter and to detect acts of 
terrorism. Therefore, first-responder personnel should not only 
be trained on how to effectively respond to weapons of mass 
destruction incidents, but also on how to recognize weapons of 
mass destruction proliferation.
    We've enlisted the help of the former chief of police of 
the Oklahoma City Police Department. He's been in New Mexico at 
least five times to discuss lessons learned in preparedness 
from the Oklahoma City bombing. The former fire chief of the 
Oklahoma City Fire Department has also been to New Mexico, when 
New Mexico hosted a fire officials conference. He's also 
discussed lessons learned from the Oklahoma City bombing. And 
an FBI bomb technician spoke at the same conference about 
lessons learned from first World Trade Center bombing. We 
believe these sessions have helped, can help throughout the 
State, to put us all on the same preparedness page.
    Last year, the Weapons of Mass Destruction Working Group 
provided four training symposiums to first-responders on 
recognition and effective response to acts of terrorism, 
including chemical agents, biological agents, nuclear and 
radiological agents, and large explosives. They have 
established a secure Web site, whereby information regarding 
training, exercises, meetings, and news articles are posted.
    I have a lot more information on the Weapons of Mass 
Destruction Working Group, and I realize I've run out of time, 
Mr. Chairman, but I'll be happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Dean follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.056
    
    [GRAPHIC] [TIFF OMITTED] T4814.057
    
    [GRAPHIC] [TIFF OMITTED] T4814.058
    
    [GRAPHIC] [TIFF OMITTED] T4814.059
    
    [GRAPHIC] [TIFF OMITTED] T4814.060
    
    [GRAPHIC] [TIFF OMITTED] T4814.061
    
    [GRAPHIC] [TIFF OMITTED] T4814.062
    
    [GRAPHIC] [TIFF OMITTED] T4814.063
    
    [GRAPHIC] [TIFF OMITTED] T4814.064
    
    [GRAPHIC] [TIFF OMITTED] T4814.065
    
    [GRAPHIC] [TIFF OMITTED] T4814.066
    
    [GRAPHIC] [TIFF OMITTED] T4814.067
    
    [GRAPHIC] [TIFF OMITTED] T4814.068
    
    [GRAPHIC] [TIFF OMITTED] T4814.069
    
    [GRAPHIC] [TIFF OMITTED] T4814.070
    
    [GRAPHIC] [TIFF OMITTED] T4814.071
    
    [GRAPHIC] [TIFF OMITTED] T4814.072
    
    [GRAPHIC] [TIFF OMITTED] T4814.073
    
    [GRAPHIC] [TIFF OMITTED] T4814.074
    
    [GRAPHIC] [TIFF OMITTED] T4814.075
    
    [GRAPHIC] [TIFF OMITTED] T4814.076
    
    Mr. Horn. Well, I want to thank the FBI in your other role 
as looking at the computer security matters of the Federal 
Government, and your people at the laboratories have just been 
tremendous. They've brought witnesses to us from around the 
world, and a lot of good things have come from that. So thanks 
for what else you're doing.
    I'm going to ask our colleague here to introduce Mr. 
Johnsen, and he's the Senior Technical Advisor for Bioscience, 
National Nuclear Security Administration, in the Albuquerque 
operations.
    Mrs. Wilson. Thank you, Mr. Chairman. Our Albuquerque 
Operations Office here at the Department of Energy has a 
tremendous expertise in these areas, and that's the office 
that's responsible for coordinating and guiding things that 
happen at both of our national laboratories here in New Mexico. 
We're very pleased to have Mr. Johnsen here today. Thank you.

 STATEMENT OF JOHN-OLAV JOHNSEN, SENIOR TECHNICAL ADVISOR FOR 
  BIOSCIENCE, NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Johnsen. Thank you, Congresswoman Wilson. And 
Chairperson Horn, thank you very much for allowing us the 
opportunity to present some testimony today.
    The Department of Energy and the National Nuclear Security 
Administration have been active in bioscience research at both 
of the national laboratories here in New Mexico for many years, 
and this, of course, includes the predecessor agencies of the 
Department of Energy. This work has been going on, in effect, 
since the days of the Manhattan Project. With the increasing 
emphasis and the anticipated increase in work in bioscience 
research and development work, the Albuquerque operations 
office, early in 2000, initiated what is now known as its 
Biosurety Program.
    ``Biosurety'' was a term that was coined to define and 
emphasize, as a single operational concept, the integration of 
biological safety, laboratory security and protection of 
biological agents, emergency response and community and 
intergovernmental relations and liaison. Biosurety, as both a 
concept and as an operational approach is now moving out to 
other DOE sites, and is a central tenet of the DOE Headquarters 
Biosafety Working Group, of which I am the chairman.
    The working group acts as a national coordination and 
information-sharing body, ensuring consistency of approaches to 
similar issues across the DOE complex, and works to ensure 
increased cooperation between the department and other Federal 
agencies in the area of bioscience. Both Los Alamos National 
Laboratory and Sandia National Laboratories are addressing 
security of laboratories and protection of biological agents in 
their site security plans, and are also addressing the related 
emergency response issues in their respective emergency 
response planning.
    Again, as a central tenet of the biosurety approach, these 
plans, as applicable to local law enforcement and emergency 
response agencies and groups, are to be made fully available, 
so that the fullest and most effective cooperation and 
coordination is in place with local, tribal, State, and other 
Federal agencies potentially affected by such work at these 
national laboratories. Policies are in place or are being 
developed by the department to ensure that this occurs.
    Albuquerque Operations has issued a directive that 
addresses the specific issues and requirements associated with 
the safe handling, transferring, and receiving of certain 
biological agents at contractor sites. This policy reflects a 
higher-level policy that was issued by the Department of Energy 
in the fall of 2001, and provides additional clarification and 
details specific to biological science activities using certain 
biological agents of concern by Los Alamos National Laboratory 
and Sandia National Laboratories.
    The emphasis by the department is that it provides 
expectations and guidance to the laboratories, which in turn 
will develop the operational procedures and site-specific 
policies to meet these expectations. The department adamantly 
holds that the fullest coordination and cooperation between the 
national laboratories and local, State, and Federal authorities 
is critical to ensuring not only that public trust is 
maintained, but in ensuring that affected authorities and the 
public are notified and involved in the department's protection 
and emergency response planning for events that could result 
from its biological science research and development efforts.
    Thank you very much for this opportunity, on behalf of the 
Albuquerque Operations Manager, John Arthur. I appreciate your 
having me here.
    [The prepared statement of Mr. Johnsen follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.077
    
    [GRAPHIC] [TIFF OMITTED] T4814.078
    
    [GRAPHIC] [TIFF OMITTED] T4814.079
    
    [GRAPHIC] [TIFF OMITTED] T4814.080
    
    [GRAPHIC] [TIFF OMITTED] T4814.081
    
    [GRAPHIC] [TIFF OMITTED] T4814.082
    
    [GRAPHIC] [TIFF OMITTED] T4814.083
    
    [GRAPHIC] [TIFF OMITTED] T4814.084
    
    [GRAPHIC] [TIFF OMITTED] T4814.085
    
    [GRAPHIC] [TIFF OMITTED] T4814.086
    
    [GRAPHIC] [TIFF OMITTED] T4814.087
    
    [GRAPHIC] [TIFF OMITTED] T4814.088
    
    [GRAPHIC] [TIFF OMITTED] T4814.089
    
    [GRAPHIC] [TIFF OMITTED] T4814.090
    
    [GRAPHIC] [TIFF OMITTED] T4814.091
    
    [GRAPHIC] [TIFF OMITTED] T4814.092
    
    Mr. Horn. Well, thank you very much.
    And now we'll go to questions. And I've just got a couple 
of questions on a broad front, and then I'm going to let my 
colleagues be the real questioners.
    Mr. Resnick, I'm curious in terms of how would you rate the 
response to the anthrax attacks, and what do you know about 
this and how many worries we should have?
    Mr. Resnick. I think the Nation has taken on a much greater 
appreciation for the threat from biological agents, pathogens 
and toxins, and it's now putting that into a biosecurity and 
threat context. I think there has been a lot of progress since 
September 11th, but there is certainly an awful lot of progress 
that needs to be made.
    I would say the challenge is very great, but the good news 
is that the technology opportunity to now bring against that 
challenge, I believe, will measure up to it, and with the full 
spectrum of interventional planning, I think we will develop a 
level of threat reduction that the American populace is 
comfortable with.
    Mr. Horn. As you know, when this all started, particularly 
with the post office and our various offices of the Congress, 
there was a lot of contradictory information at the outset, and 
also, the steps taken to protect postal workers was very 
strongly criticized, some happenstance. What could you tell us 
about that? And what have we learned about?
    Mr. Resnick. I would join in some of the earlier comments, 
that the thing we have to do first is to know what we know and 
to make that knowledge available to all planners and 
responders. I think that is our first priority, to gather up 
every piece of information that's in every laboratory and 
provide that through information technology, so it is real-time 
available. But once again, I think there's an awful lot of 
progress that could be made there.
    Mr. Horn. Let me move to another; this is worldwide, but 
you're involved, Mr. Resnick, and also Mr. Johnsen and Mr. 
Nokes. Your written testimony notes the challenges associated 
with nuclear material stored in the former Soviet Union. I feel 
very strongly, and I did from day one in Congress, that if we 
don't involve Russia with Europe and with the United States, it 
will be the biggest diplomatic mistake we've made. And as we 
see, President Bush has a very good relationship with President 
Putin of Russia.
    And what we worry about are scientists going to some of 
these nations and what we're doing in terms of sufficiently 
melting down the atomic warheads that we have on our side and 
their side. And what--is there a threat here and being 
addressed and is it being addressed sufficiently by those with 
the responsibilities of the issue?
    Mr. Resnick. A very important question. I personally have 
visited several of the ex-Soviet Union biological warfare 
facilities, and I think there is a very real problem here, from 
the proliferation of pathogens and toxins, as well as the 
concepts of use outside of Russia. I think Dr. Olav Johnsen's 
comments about the concepts of biosecurity, are very important, 
and I think we can take those concepts that are evolving in the 
United States and share that with Russia to secure their 
pathogens and toxins, and make an overall increase in global 
security a realty.
    Mr. Horn. Mr. Johnsen, got any thoughts on that?
    Mr. Johnsen. I'm in full agreement with the need for 
increased cooperation. In fact, predating September 11th, in 
October 2000, there were--I believe it was approximately 26 
very senior Russian, Georgian, Cossack senior science, 
bioscience researchers and administrators visited Sandia 
National Laboratories for a 4-day session looking at, 
specifically, security--increasing security for the biological 
agents that they had and have at their various sites in the 
former Soviet Union.
    So this is certainly something that is recognized as a 
problem, potential problem, and as a pressing need, and the 
national laboratories here in New Mexico, and certainly within 
the NNSA complex, are able to and have been working with their 
colleagues in the former Soviet Union, to the extent able, that 
we're able to try to limit the proliferation of these 
materials. It remains a concern. There is much work yet to be 
done.
    Mr. Horn. Mr. Nokes.
    Mr. Nokes. Yes, I'd make a comment. I think it's not true 
that the Russians don't care about the security of their 
materials and weapons, because they clearly do. I think what 
has happened is, under the Soviet system, the insider was not a 
threat. You couldn't steal a weapon or material and sell it, 
because there was no market. That is no longer true. And so 
they have to change their entire concept of securing materials 
and weapons.
    The labs have been very active in a government program to 
safeguard weapons and materials in Russia since about 1992. A 
great deal of work needs to be done, because they're changing 
their entire philosophy of security. And I think great progress 
is being made, but there is still enormous work to be done. And 
I really support what began as the nonnuclear initiative and 
continues today in the safeguarding of Russian materials and 
weapons.
    Mr. Horn. Well, along that line, and I think you've touched 
on it, and that's after the second world war, we luckily were 
able to get Werner von Braun and his German scientists on our 
side, and I think one of them went to the Soviet union. And 
where are we now? We had a wonderful experience with NASA and 
the space capsule, and so forth, and that certainly got us 
working together in a partnership, and are there other ways 
that we could get the scientists of Russia, so they aren't 
going off to Iran, or wherever it is? And how are we doing on 
that?
    Mr. Nokes. Let's see; the Russian scientists that I have 
met, and during the time that I was managing that type of 
program at the laboratory, are as worried about Iran and Iraq 
and other countries as we are. But the practical matter is, 
sometimes they've made offers they can't refuse. Working with 
the Russian scientists has become more difficult at the 
laboratories in the last 2 years, because of other, almost 
unrelated circumstances around counterintelligence and Dr. Lee 
and the perception that the laboratories working with foreign 
scientists was not in our national interest.
    I think that it is important that we collaborate with the 
Russian scientists and give them a reason to stay on the side 
of the good guys, and I think that program can be strengthened.
    Mr. Horn. Going back a minute to some of the ways that it 
can happen, that it hurt a city, a region, whatever, and that 
is the toxins that can be spread by airplane. And some of the 
terrorists, that we know about, in terms of Florida's school 
and all of that, and I wonder to what degree do we feel there 
is a real problem there and what do we do about it, because 
there's a lot of ranchers, also, and farmers, that they need it 
to get these certain things in their lettuce fields, or 
whatever it is.
    Mr. Resnick. I think you underscore the ubiquitous nature 
of the threat. It's very broad and very decentralized. And it's 
not a very simple solution to put a fence around. Clearly, it 
is quite feasible to disseminate, from crop dusters, biological 
threat agents. It's been done fairly routinely for testing 
detection systems at proving grounds. I think, once again, it 
points to the need for a very comprehensive approach to 
identify all of the potential choke points. If we look at the 
overall weaponization scheme that an aggressor would have to go 
through, start to target each step and look for the 
vulnerabilities that the aggressor has to interrupt at each 
critical node.
    Mr. Horn. Any other comments on that?
    If not, I'll ask Representative Wilson to pursue the rest 
of the questions, along with Mr. Udall.
    Mrs. Wilson. Thank you, Mr. Chairman.
    There are a couple of things that kind of came to mind as I 
was listening to your testimony.
    David, you mentioned the processes for other governments, 
governing agencies, to be able to get rapid access to the 
research and document done at our laboratories. They are, I 
think the words you used were ``clumsy and inefficient.'' What 
needs to be changed in order for other government agencies, or 
State and local government, or whoever needs it in a crisis, or 
even preferably in advance of a crisis, to be able to get rapid 
access to that technology? What do we need to do?
    Mr. Nokes. Well, see, the position we find ourselves in is 
when the post office calls and says, ``Please help,'' and if we 
don't have funds in the door earmarked for the post office, 
we're prohibited from answering that call until we do the 
paperwork.
    Now, there has been a good step forward, because 
Albuquerque Area Office has provided breach funding. So if 
someone in the government looks them in the eye and says, ``I'm 
going to want this work done, and I'll make good on the 
money,'' their labs can start the work. That's a good start, to 
begin.
    The problem is that the most important work is not urgent. 
I mean, it's important for us to react quickly and do the 
urgent things that solve a ``today'' problem. The more 
strategically important thing is doing a tech transfer from the 
tech-base we have to the longer-range problems that make this 
whole system come out well, because we cannot just pour money 
into it; we can't hire more guns and guards. We have to find 
ways to identify the critical points, the nodes, and with a 
technology-based solution, make security affordable so commerce 
goes on and we have good security at various places in the 
country.
    It seems to me that one way to answer your question is to 
have NNSA as a broker for other government issues, as they do 
for treaty verification and arms control; they sponsor the 
basic research that provides that technology to the Nation. You 
can imagine NNSA having that mission, of making the labs 
available to other government agencies, solving problems that 
are, in fact, common across the Nation. I would like to see 
something of that nature.
    Mrs. Wilson. One of the criticisms that we hear, from time 
to time, and I know the committee has heard it in other places, 
has to do with law enforcement's access to information; 
intelligence, if you will, from other jurisdictions and from 
the Federal Government. And I wonder, Mr. Dean, if you can 
comment on that and whether that's gotten any better; what else 
needs to be done, so that when a State policeman pulls somebody 
over, for a taillight being out, between Albuquerque and Santa 
Fe, they're able to run the number and find out if there's more 
than a taillight out.
    Mr. Dean. I think we've made some positive strides in that 
area. We've enabled chiefs of police and heads of investigative 
agencies to get background investigations, where we provide 
that information to them. We've also been able to add some 
information on terrorists in one of our data bases, called the 
violent terrorist file, which would give the information to 
patrolmen stopping somebody. It will tell them this person is 
not just a regular Joe. It's called the ``Big Talk'' file. It's 
not a perfect file, but it does identify a person with some 
potential terrorist leanings.
    There are still some limitations; some of the information 
that we do provide to a chief of police or head of an agency is 
law enforcement sensitive, and because of the way Federal law 
is written, he possibly could not share that with his boss. The 
law does not allow us to--we're limited; it's secret 
information that we get, to normally only be disseminated 
within the law enforcement community.
    Mrs. Wilson. One of the things I'm concerned about is that 
we have the intelligence community saying things are 
intelligence-source protected; we have the law enforcement 
community saying they're law enforcement sensitive; and the 
military doing the same thing, so that we're not able to put 
together a picture that will allow us to--one of the greatest 
assets we have in the war against terrorism is information and 
the ability to manipulate it and share it when it needs to be 
shared.
    Are there things that need to be changed in the law to 
allow that to happen among agencies more, so that you can tell 
your boss, or even more importantly, you can tell the cops on 
the street in Atlanta who to be looking for, in a way that's 
systematic and that doesn't require a phone call from one guy 
to another guy.
    Mr. Dean. I think it's going to require a change in the 
law. We are able to filter through some intelligence-sensitive 
information, and pass it on to law enforcement, but it's 
limited. So it is going to require some change in the law in 
what we can put out and provide to our law enforcement 
officers.
    Mr. Horn. Can I comment on this?
    Before leaving for this trip, I sat down with Mr. 
Sensenbrenner, the chairman of Judiciary, who has joint 
authority with our government reform on this issue, and I have 
put a bill in, and Mr. Sensenbrenner told me he certainly was 
going to give it a hearing, and that he was all for it. We 
might just have it sent to the floor without even a hearing. 
When we get back to the district, from the constituency, we 
will be acting on that. They wanted to act on it on the early 
homeland bill, and just for some reason, it didn't happen.
    But using the FBI, we want, obviously, to have a person in 
the police departments, let's say, to start with, and the chief 
of police of any city ought to designate one individual, and 
obviously, the FBI would have to do an investigation to see if 
that person is worthy of the intelligence that would be used 
from the FBI. If you have somebody who's not a very good 
policeman, we need to know that before we give them the 
intelligence. But we are making progress on that, and 
hopefully, we will get that done in the next month or so.
    Mr. Dean. I think that would be very helpful, sir.
    Mr. Horn. And I'd like to have my colleagues join me on 
this.
    Mrs. Wilson. I'd be very happy to join you on that. I 
think, also, it's not just law enforcement information that 
needs to be shared and passed up. We have 14 national 
intelligence agencies; we have Immigration and Naturalization 
Service; we have the U.S. Customs Service; we have 56 FBI 
offices, and access to information is our first line of 
defense. And I hope that we can work out some of these issues. 
Having formerly served on the House Select Committee on 
Intelligence, I know how hard it is to even share between 
government intelligence agencies. I think we need to get beyond 
it, so we can protect ourselves and not just our sources. And I 
look forward to seeing that move forward.
    Mr. Johnsen, I have a question for you. I'm very interested 
in this concept of biosurety, and particularly looking at the 
continuing biological safety, laboratory security, protection 
of biological agents, and then the response, so it's not just 
proactive. On biological agents, frankly, we really haven't 
paid much attention to it before the anthrax situation on the 
East Coast. And I wonder, from your perspective, what needs to 
be done in order to strengthen that capacity, not necessarily 
at our DOE labs, although you may want to use those as an 
example, but nationwide.
    I was struck when we had the anthrax incidents, the first 
question that the FBI, of course, asked is, ``Well, how many 
laboratories across the country have this strain of anthrax?'' 
And the answer was, ``We don't know,'' because there's no 
requirement to even register the various strains of toxins 
identified by the CDC. From your perspective, what needs to be 
done to strengthen the system?
    Mr. Johnsen. First off, from a security standpoint, it's 
very easy to take the lessons that everyone is comfortable 
with, from protection of nuclear materials or physical 
property, and try to apply it to biological materials. But the 
fact is that the ubiquitous nature of these materials--they're 
commonly available; they're natural materials; they self-
replicate, in many cases--means that security, as applied to 
the biological laboratory and to the biological agents that are 
contained therein, really present a fairly unique set of 
challenges.
    The initial reaction of bar-coding vials to keep track of 
an inventory, for instance, is fairly meaningless when you can 
extract a small amount of material from inside that vial and 
you still have your vial accounted for, but not that material. 
The fact is that there is a chain of custody procedure for a 
set of biological agents, known as ``select agents,'' that is 
codified in law. Centers for Disease Control has the Select 
Agent Rule, and certain materials, only in the last few years, 
have to be accounted for as they're transferred around between 
laboratories. But that's only a subset of a much larger group 
of materials.
    Also, the fact is that we have no laws on the books 
regulating these materials, from a security standpoint. The 
only guidelines--and I emphasize, they are guidelines or 
recommendations--that exist for laboratory security, biological 
laboratory security, exist as an appendix to the safety manual 
issued by the CDC, which is, in fact, the international gold 
standard that is used for laboratory safety. But nonetheless, 
the security recommendations are contained within the safety 
manual; it's a good set of recommendations, but it's very 
broad. It lacks some of the specificity that's needed. So work 
needs to be done to strengthen that.
    There is an interagency working group that has been looking 
at the security of agents since January 2001. And Sandia, in 
fact, has been heavily involved in supporting that. The lead 
agency for that has been the USDA. And they have come up with 
some models that have been put into--or tested, I believe, at a 
couple of their biological facilities, the USDA's facilities. 
But again, a lot of work remains to be done.
    Legislation would be helpful, but it needs to be educated, 
carefully thought-out legislation. There are examples in the 
international community where security requirements have been 
put into place, in one Nation, that are so restrictive that 
research has suffered tremendously, and yet, real security has 
not been enhanced: Specifically, putting a guard in the 
laboratory to watch the scientists, but a guard who has no 
biological knowledge. And it really is a meaningless gesture.
    Those are the kinds of things we need to avoid, while 
recognizing that there are real concerns, real threats that can 
be addressed. But they need to be addressed in a very careful 
manner.
    Mrs. Wilson. Thank you, Mr. Johnsen.
    Mr. Horn. Along that line, are there certain laws that we 
haven't mentioned--I mentioned the one with Mr. Sensenbrenner, 
that was a letter from myself and Mr. Shays, who has the 
international part on Government Reform. Are there other areas 
where we should have a way to get that information to the 
people that are the responders, the police, the firemen, and so 
forth? Anything we're missing, like a privacy law? Does that 
hurt us from getting the information and doing something about 
it?
    Mr. Johnsen. Privacy Act considerations could come into 
play when you're dealing with immunization protocols and this 
sort of thing. But I don't know that would directly affect law 
enforcement, as much as just looking at the actual security of 
materials.
    Biological safety, biological security of biological 
materials, while separate, are also so interrelated that it is 
difficult to separate them. They are definitely separate, but 
again, part of our biosurety concept is, in the past, we have 
seen that these items, these areas of safety and security and 
emergency response, tend to be pigeonholed; they tend to be off 
in their own wells. And we felt, as an operational concept, it 
was important to start pulling these together, thinking of them 
under a single organizational or operational umbrella----
    Mr. Horn. Are we able to put that into the record, or is 
that a classified document?
    Mr. Johnsen. That is not classified.
    Mr. Horn. Back to Mr. Yim. What do you have on this, 
because I know the General Accounting Office has done a lot of 
work on it.
    Mr. Yim. I think this is one of the areas, Mr. Chairman, in 
which we have to look at not only the experiences from the 
private sector and security of our laboratories, but we also 
need to look at our laws and whether they've kept pace with the 
technology. Unlike, for example, nuclear material, where you're 
actually physically moving an agent, sometimes from the 
biological aspect, we get tremendous advancements in that 
community and be able to transfer code, as opposed to the 
actual agent, itself, and cause the same impact. Hopefully, 
that's not occurring, but that is an area where laws need to 
keep pace with changes in technology, to maintain security, not 
only now, but over time.
    The transfer of select agents, for example, there may be 
some simple fixes, such as requiring prior approval of 
transfers, and having, in that prior approval process, a cross-
check with intelligence information as to the recipients of 
those materials being transferred. I think that one of the 
issues for us is that it doesn't have to be an evil purpose. I 
mean, there are well-intentioned researchers that may be 
requesting agents for legitimate research purposes that 
unknowingly may be creating exposures for us.
    So I think the laboratory security issues and the 
proliferation of both human disease and also agents that can 
affect our food production chains, I think, is an area of 
critical importance.
    Mr. Horn. Representative Udall.
    Mr. Udall. Thank you very much, Chairman Horn.
    One of the things that I think would make the fight against 
terrorism work very, very well is if citizens are involved in 
it, and involved in it in a significant way. I mean, in a very 
real sense, our citizens can be the eyes and ears out there and 
help detect things. But one of the things that I hear from my 
constituents, in doing town hall meetings or having meetings 
with them, is that they ask about the current alert system that 
we have in place, where we go on this overall alert, terrorist 
alert. And I know the attorney general has now refined this, 
and they're broken down into categories.
    But I'm wondering what--any of the members of the panel 
that have any thoughts on this, are we utilizing our citizens 
to the best we could, in terms of being eyes and ears out 
there; what's the best type of alert system; are we doing 
public outreach and letting the public know the kind of 
information that the law enforcement and other agencies need?
    It seemed to me that there was one incident that played 
out. It was where, in California, there was one of the bridges 
that was going to be--there was supposed to be a terrorist 
incident with a bridge, and the California Governor was given 
that information, and he put that information out there. And 
clearly, a citizen, under those circumstances could, if they're 
driving across the bridge or near the bridge or hear somebody 
talking, they can then supply information.
    So I guess I have a couple of questions for you, really: 
What do you think of the alert system we have now? Can it be 
improved on? How do we really get citizens into this fight, in 
terms of getting them involved and being able to provide law 
enforcement agencies with the very best information?
    Mr. Castleman. Well, certainly, Governor Ridge recently put 
out the program for a new alert system, and that's getting 
feedback right now. It's not finalized yet. But we're hoping 
that from the information that we--the feedback that is 
received, that system will be refined so that it will become 
second nature to people, as to where we are and how to 
understand the alert system.
    The other point, I guess----
    Mr. Udall. Ron, is there any more--I know there's a 
graduated tier on there, but is there any more information 
being given to the public under this tiered system that's out 
there? Is that the intention of going to different tiers, is to 
give more information to the public?
    Mr. Castleman. I think, so that there is a more clear 
understanding, certainly, we're--this proposed system is being 
reviewed with States and the local first-responder community, 
and other parties that can help make decisions about this. So 
we're getting feedback that way. We won't be putting that out 
until it's finalized, of course, but it is being tested right 
now. I think there is still some work to be done to refine 
that. So I don't think we're there yet, but I think we will get 
there.
    The other point that you made was how can citizens get 
involved, and there is an effort, that's just begun, with 
Citizen Corp, which, I believe, will--the more citizens we get 
involved with those programs, such as Neighborhood Watch and 
FEMA, certain programs, we'll be able to align them with the 
alert system, be in a better position than we are now. We've 
got a long way to go, but we have some things in place that, I 
think, are the foundation for where this will all get better.
    Mr. Horn. If I might give you an example in relation to 
Representative Udall's question, it was recently revealed that 
Federal officials had withheld information of a potential 
nuclear threat from city and State officials in New York. Is 
that justifiable, to not inform them of what they should worry 
about in their harbor, and everything else? Now, I know the 
Coast Guard was on alert to look at some of the cargo that was 
coming in, with shipments from Europe and all over the world. 
Is that justifiable, or should the norm be, whether it's secret 
or not secret, or that it's not a real threat, because you 
ought to get all that focus on it, with the State, city, and 
all the others. What do you think?
    Mr. Castleman. Well, I'm not sure that I'm in the best 
position to comment on that, but I believe that one of the 
problems may have been the lack of a good system that every law 
enforcement person and emergency management person and every 
citizen will understand. And I'm only assuming that part of the 
problem in that information not being delivered was a weak 
alert system. So it's my opinion, only, that perhaps this 
system is to try to counter that kind of problem in the future. 
That's my own personal speculation.
    Mr. Horn. Any thoughts, Mr. Dean?
    Mr. Dean. Mr. Chairman, I don't know the specifics of that 
particular incident, so I would only have to assume that the 
information wasn't passed because of the law not allowing it to 
be passed. And I would say that's a faulty and outdated law, 
that type of information has to be passed, when there's a 
threat of a nuclear attack. It has to be passed.
    In response to Mr. Udall's question, since September 11th, 
I think citizens have stepped up to information that not only 
the FBI, the Federal and State government have put out, through 
the media, with alerts, with requests for citizens to be more 
watchful, be more vigilant. Post September 11th, we received 
thousands of calls to our command post, from citizens, that we 
probably wouldn't have received. So I think citizens are more 
mindful, more aware, more careful, and they are participating 
more in assisting law enforcement with potential problems.
    Mr. Udall. Do you think if they had more specific 
information, they'd be able to help you more? And of course, we 
don't want to get into methods and sources and those kinds of 
things, but it seems to me, when you put people on a general 
alert, you're going to get a lot of calls that maybe aren't 
very relevant to whatever it is that you're looking into. But 
if you're able to somehow use and give specific information, 
you may get a lot better information back.
    Mr. Dean. I think so. I think the general alerts are very 
general and very vague. And I think if specific information was 
disseminated, then we probably would receive more relevant 
calls from the public, yes.
    Mr. Horn. Mr. Nokes, what's your thinking on this?
    Mr. Nokes. Well, I was going to make the comment that one 
of the problems I think the government has is that you don't 
get crystal clear indications that an attack is going to 
happen; you get inferences. So someone has to make a judgment, 
is this credible and should this be raised to a higher alert. 
And I think that, in the case of New York, the judgment was 
made that the information wasn't particularly credible. And I 
think that's going to be a continuing challenge, particularly 
as you get more and more information, get citizens reporting. 
Someone has to be in a position to assess the credibility and 
the seriousness of the threats that are being posed.
    Mr. Horn. Mr. Yim.
    Mr. Yim. I think, also, Mr. Chairman, and Mr. Udall, one of 
the things that's important on the tiered-threat system is not 
only a better definition or common understanding of what 
information to share, but because the system is modeled on the 
Department of Defense tiered system, and under the Department 
of Defense system, at each tier, certain additional 
nondiscretionary action needs to be taken; for instance, at 
each military installation, as you move from Alpha to Bravo to 
Charlie, there are additional steps. I think that would be very 
helpful, during the public comment period on this system, to 
begin to define exactly what additional steps State and local 
government should be taking as the threat levels rise, and then 
perhaps that would then augment the capabilities of the local 
governments to respond as threats ratchet up.
    So, again, we'll always have to balance the sharing of 
information, intelligence information, with the threat to the 
sources and methods. But if we can begin to enhance 
capabilities as threats arise, to respond flexibly, I think 
that will be the key.
    Mr. Horn. Well, this is one of the questions we were going 
to ask, and it's relevant to this point: What's the situation 
that each of you could provide for us, were the witnesses to 
submit for the record a list of the Federal laws that they 
believe--you believe inhibit the sharing of information between 
Federal, State and local officials? Do any particular laws come 
to mind on that? We know about the FBI intelligence. Is there 
anything beyond that?
    Mr. Yim. Well, Mr. Chairman, I've heard from a lot of 
communities that the security classifications are a tremendous 
roadblock. So the legislation you've introduced, I think, will 
go a tremendous way in handling that problem.
    One of things we have to augment, however, in addition to 
the classification as to who should get the information, is 
also the architecture, of course, to share that information 
quickly and effectively. And I think we're making a lot of 
progress in getting common data bases that can be shared, 
enhancing the IT infrastructure, so that information can be 
pumped out.
    But once we solve those first two problems, getting the 
architecture in place and the security classifications, there 
needs to be some focus on the analytics of that. We're going to 
have to be creating a pipeline, then, that will get larger and 
larger as we're pumping more and more information. And I think 
there needs to be emphasis on the analytics of that 
information.
    One of the things that we've heard from State and local 
governments is that they could be deluged with information and 
lack the ability, the human capability or just the basic 
knowledge, to analyze the volume and could not sort the wheat 
from the chaff. And I think that we need to have some emphasis 
on that, whether that will encompass legislation or not, or 
just straight up, some dedication and resources to augment it; 
I think it's more the latter than the former.
    Mr. Horn. We'll hold the record over on this question for 2 
weeks, and if you have some thoughts, please send it to us, so 
we can put it into the final report on that.
    Any other questions?
    Mr. Udall. No. Thank you, Mr. Chairperson.
    Mr. Horn. Ms. Wilson.
    Mrs. Wilson. No.
    Mr. Horn. Well, we thank you, and we will now go to the 
second panel. That starts with Mr. English and Mr. Bakas; Mr. 
Horn, no relation; Mr. Busboom; Dr. Roth; and Dr. Sewell.
    We thank you for coming, and as those of you know who were 
here earlier, this subcommittee that I chair is an 
investigatory committee, and so we're going to ask you to 
stand, raise your hand and swear or affirm the oath.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that the five witnesses have 
accepted that, and we will ask our colleagues here to introduce 
a number of you, because you're close friends.
    Honorable Thomas L. English, Secretary, New Mexico 
Department of Public Safety.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Tom English is the cabinet secretary for the Department of 
Public Safety here in New Mexico. He is a former assistant U.S. 
attorney and was involved in the prosecution of a number of 
gang and violent crimes, including the Sureno 13, and a Major 
in the U.S. Army Reserves, where he served as a JAG lawyer, and 
also, a long-time New Mexico State Police Officer.
    Very glad to have you here, and look forward to hearing 
what you have to say.

 STATEMENT OF THOMAS L. ENGLISH, CABINET SECRETARY, NEW MEXICO 
                  DEPARTMENT OF PUBLIC SAFETY

    Mr. English. Mr. Chairman, Congresswoman Wilson, 
Congressman Udall, first of all, I'd like to thank you for 
asking for the input of State and local government.
    We in State government recognize the Federal role in the 
fight against terrorism, that to investigate and to detect. And 
we are well served by the Federal Government in that capacity. 
Likewise, the Federal Government must recognize the State and 
local role in this particular problem area, and primarily that 
of being the first-responders.
    We all have the same mission, purpose, and resources, and 
we should seek to unify those, our mission to protect the 
public before, during and after attack, by having the purpose 
to mitigate and respond, with our resources that include both 
information and capacity. We are starting to improve on 
cooperation and coordination. We saw that start with the 
Oklahoma City bombing, the passage of the Nunn-Lugar-Domenici 
Act, the Office of Domestic Preparedness in the Department of 
Justice, but as I have seen this weekend, while fires ravaged 
Lincoln County in New Mexico, I know that we face a daunting 
task if we are the unfortunate recipients of a terrorist 
attack.
    We should be well-minded that the al Qaeda network waited 8 
years between their attacks. We must be ready and we must be 
prepared. And we will be.
    Communication is the key to cooperation. Cooperation is the 
dynamic that powers a coordinated response to terrorism. 
Cooperation hasn't always been an operative term in Federal and 
State relations. There are two areas that we really need to 
look at, I believe, or I would ask you to look at. One is the 
recognition of roles and the second is the exchange of 
information.
    I went to a meeting with the President and Governor Ridge 
at the White House in January, with the 56-some-odd Homeland 
Security directors. These concerns were raised, uniformly, from 
across our great Nation. In response, the President, Governor 
Ridge have proposed the first-responder program, which 
provides, as Mr. Castleman said, 3.5 billion in first-responder 
money.
    I know that there will be some concerns in Congress about 
FEMA administering this money. I would like to point out that 
this weekend, FEMA responded, not within days, weeks, months or 
years, within hours, for a fire suppression grant for the State 
of New Mexico. I believe that they are well-suited to provide 
the strategic planning to assist us in capacity building and to 
pass money to local government.
    I'd also like to state that this hearing is a great example 
of an attempt to bring us all together. As a State manager, it 
is not my job to dictate to local incident commanders what to 
do in response to an incident. Likewise, it's not for the 
Federal Government to dictate to State and local governments 
what to do. The area of information we need access to is 
critical relevant information. When DOE has Q-clearances, and 
Department of Defense has their clearances, and Department of 
Justice has their clearance, we all don't stand, really, a 
chance in local government. Make a national security clearance, 
clarify the exchange of information.
    I'm also reminded of the radar operator at Pearl Harbor, 
who thought that the information was not relevant to the attack 
on Pearl Harbor. I think of the information possessed before 
the attack on the World Trade Center. I would love to be 
deluged with information. Give us that information; we will use 
it.
    Let there be no thoughts or misconceptions. We are ready to 
respond. But honesty is the best policy, and we have to admit 
there are areas for improvement. We have to look for our 
weaknesses so we can get better. Much like I tell my 
department, ``We must be one,'' I think we all must realize we 
are one Nation. Thank you.
    [The prepared statement of Mr. English follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.093
    
    [GRAPHIC] [TIFF OMITTED] T4814.094
    
    Mr. Horn. Thank you. Very eloquent.
    Our next presenter is Mr. Bakas.
    Mrs. Wilson. Thank you, Mr. Chairman. Nick Bakas is the 
Chief of Public Safety here in Albuquerque. It's a new position 
created under the current mayor to kind of integrate police, 
fire, emergency response within the city of Albuquerque, which 
gives him, I think, a unique perspective on the problems we 
face in combating terrorism. He is also a retired Albuquerque 
Police Department officer, the former head--cabinet secretary 
for public safety in New Mexico. He led State efforts during 
the Cerro Grande fire, and was the head of the New Mexico Urban 
Search and Rescue Team. He then went to the Pentagon following 
the attack on the Pentagon. So I think he has a unique 
perspective to offer this committee.
    And thank you very much for coming today.

 STATEMENT OF NICHOLAS S. BAKAS, CHIEF PUBLIC SAFETY OFFICER, 
                      CITY OF ALBUQUERQUE

    Mr. Bakas. Thank you. Chairman Horn, Congresswoman Wilson, 
Congressman Udall, good morning. Thank you for the opportunity 
for a perspective from the local level.
    I am Secretary English's predecessor at the State level, 
but now, as of September 11th, numerous people have mentioned 
that the world has changed, the way that government, at all 
levels, responds to the needs of their citizens has also 
changed, and part of that change, as you've mentioned, 
Congresswoman Wilson, is that Mayor Chavez has created this new 
position. This is the position of Chief Public Safety Officer. 
My duties and responsibilities include the oversight of the 
police department, the fire department, corrections, and 
emergency management.
    There is an old Japanese proverb, I believe, that I think 
is very operative of this position, and that proverb is that 
the time to dig a well is not when you're thirsty. So our--my 
responsibility, our responsibilities in general, is to provide 
that planning, provide that necessary effort, so that we're 
ready to respond in a time of crisis, whether that crisis is a 
weapons of mass destruction incident or whether we're talking 
nuclear, biological, or a chemical incident.
    On the local level--and I know there has been much 
discussion about how we communicate between the various 
agencies; let me tell you that it is a monumental task to 
communicate among local agencies. Specifically, how do we break 
down some real barriers; how do we break down some artificial 
barriers; how do we--as Secretary English mentioned, how do we 
communicate? It's very easy to become territorial.
    I know the fire department has their issues; the police 
department has their issues; and Lord knows that the 
corrections folks are the redheaded stepchild of the whole 
public safety process; no one ever consults, refers or gives 
them the time of day. And this is really not where we want to 
be when it comes to providing for our citizens in Albuquerque.
    Once we can get by those efforts, some real, as I say, some 
artificial, we have special needs on the local level. I know 
we've been in concert with Dean Roth of the medical school. In 
the sense of an emergency, what is clearly apparent is that 
there are special needs of the very young and of the very old 
that we must address, and what has also become very, very 
clear, and important, is that we have needs of the disabled 
that, in planning, we all too often forget. We've solicited and 
are getting the input of Art Schreiber, a local celebrity here 
that town, a local politician, radio announcer, who is blind 
and who also will be participating with us on those very issues 
of the disabled and how they relate to emergency planning.
    Secretary English, his staff, my staff, we're now meeting 
on a regular basis to determine what we will need to set in 
place, and we are very anxious, with Governor Ridge's proposal, 
to distribute, I believe, $3.5 million in first-responder 
money. Needless to say that any of this planning, anything that 
we're doing here today with respect to planning is very 
expensive. And I would emphasize, if anyone is not aware, that 
the city of Albuquerque is in dire financial straits, so we are 
very anxious to see how this infusion of funds is going to be 
distributed. And with that in mind, we are in concert with our 
partners at the State level and our partners on the Federal 
level.
    I know, Congresswoman Wilson, you mentioned that we, here 
in New Mexico, stood ready, and we stand ready, to respond to 
emergencies of this Nation. I would be remiss if I did not say 
that one of the highlights of my career, that you mentioned, 
was our response to the attack on the Pentagon, Flight 77. It 
was New Mexicans, 62 of us, that went to the Pentagon, and we 
did search and recovery efforts. It was fellow New Mexicans, in 
partnership with FEMA, in partnership with the country in 
general, that performed magnificently. It was New Mexicans that 
shored up the Pentagon, which I'm sure is a building you see 
regularly. The Pentagon sunk a foot. It was New Mexicans that 
put that beam up on the right side of that damaged area and 
also supported the left side of that building.
    So I am truly very proud. I see some other members of that 
team, John Gaffney, out in the audience. I know my time is up, 
but I do want to thank you, Congresswoman Wilson, for 
presenting us the American flag and a letter, while we were 
camped at the grounds of the Pentagon, and that went a long way 
to help us in our efforts. So I would thank you, and I will 
conclude with that.
    [The prepared statement of Mr. Bakas follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.095
    
    [GRAPHIC] [TIFF OMITTED] T4814.096
    
    [GRAPHIC] [TIFF OMITTED] T4814.097
    
    [GRAPHIC] [TIFF OMITTED] T4814.098
    
    Mr. Horn. Go ahead.
    Mrs. Wilson. Thank you very much, Nick. That was a--it was 
kind of a moving experience to go over and meet with you and 
your team there at the Pentagon, in those days following that 
attack, and their determination to help was heartwarming.
    When we're looking at emergency response, there's no way 
that any of us can ignore the National Guard. When things go 
wrong, every Governor in this country, one of the first things 
they do is call out the Guard. And the Guard is among us and 
with us; they are part of our communities. And when New York 
and Washington were attacked on September 11th, it was Guard 
units that were in the air to help protect us.
    Since then, the National Guard has flown 18,000 sorties, 
providing air cover over this country, continuous air cover 
over New York and Washington, and rotating air cover around the 
country. The 150th Tactical Fighter Wing, the Tacos, have been 
a part of that.
    In addition, there is this irony that Mikey Rice, who is 
the head of civil air--in his civilian capacity, the Head of 
Air Transportation and Civil Aviation for the State of New 
Mexico, is also a brigadier general in the Air Guard, who 
rotates, about every 6 weeks, through Tampa, to be the general 
who is responsible for making those orders, if there is another 
attack on the United States. So there is a certain irony about 
the Guard and the places people come from and the expertise 
that they bring.
    The New Mexico Guard has sent security police overseas and 
has been protecting our Air Force, our bases here in New 
Mexico, in concert with the civil authorities and with the 
active duty Air Force. And the New Mexico Guard also is one of 
the States that has the civil response team which is set up and 
trained to respond to emergencies involving biological and 
chemical attacks. And I have to say that when the Speaker's 
office called me that Saturday, one of the people that I called 
was the Guard and General Horn. And his people were very 
helpful in figuring out what capabilities might be available in 
the State Guard units, including those in Maryland, Virginia, 
Pennsylvania, and New York, that might be able to help 
Washington. That's a measure of the strength of the National 
Guard in our communities.
    General Horn is a former fighter pilot who is now the head 
of the New Mexico National Guard. He's the adjutant general 
here in New Mexico.
    And I thank you very much for joining us, sir.

   STATEMENT OF BRIGADIER GENERAL RANDALL E. HORN, ADJUTANT 
               GENERAL, NEW MEXICO NATIONAL GUARD

    General Randall Horn. Mr. Chairman, Representative Wilson, 
Representative Udall, thank you for the opportunity to speak 
with you today concerning Federal support for the preparations 
we are making in the face of chemical, biological, radiological 
and nuclear threat.
    I've broken my presentation into distinct areas, to try to 
make it easier for you to distinguish between the types of 
support and coordination that we're seeing.
    The first area of concern is federally funded missions, 
that have been identified, supported by the New Mexico National 
Guard since September 11th. First, we support the airport 
security mission, with 47 Army and Air National Guard 
personnel, at four locations around the State, to include 
Albuquerque, Roswell, Santa Fe, and Farmington. The FAA has 
been involved with the training of these troops, and in our 
estimation, has done a very good job. I would comment that it 
is important that this operation stay on the current plan for 
transition to the civilian sector, currently scheduled for the 
end of May.
    New Mexico Army National Guard has recently mobilized 19 
National Guardsmen to Title 10 Federal status for the Border 
Sentinel mission, in support of the U.S. Border Patrol at ports 
of entry on the southern New Mexico border with Mexico. The 
U.S. Army is our primary interface for this mission, and there 
are issues concerned with this mission that I'll address a 
little bit later.
    The New Mexico Air National Guard contains the 150th 
Fighter Wing, the infamous Tacos. We currently have more than 
200 New Mexico Air National Guard personnel deployed to New 
Jersey, flying F-16s and operating over the city of New York in 
support of Operation Noble Eagle. This mission is planned to 
continue for the next 60 days.
    Mr. Chairman, those are the missions that we have taken on 
as the direct result of the terrorist attacks on September 
11th. Let me tell you just a little bit about some of the 
things we were doing before September 11th, in preparation for 
terrorist type of activities.
    New Mexico National Guard has one of the Weapons of Mass 
Destruction Civil Support Teams, as they are usually referred 
to. This 22-person team was recently certified, and the CST 
aids civil responders in identifying chemical, nuclear and 
biological threats as they evolve. The 64th Civil Support Team 
conducted a series of joint training exercises with communities 
throughout New Mexico, on 10 through March 17th of this year, 
the primary objective being, was to incorporate CST response 
assets with local and State WMD response agency assets. This 
team has setup a display in the front lot, and I would invite 
you to come by after the hearing today to visit with them and 
understand a little bit more about what they do.
    The New Mexico National Guard also operates the 100-person 
counter-drug mission on the Mexico-New Mexico border. This 
program is directly aimed as stopping the flow of illegal 
drugs; however, it obviously has a spillover effect to the 
apprehension of people and products who might be trying to 
bring weapons of mass destruction into the State, as well.
    Mr. Chairman, that's a thumbnail sketch of the types of 
operations we currently work with, with regard to prevention of 
chem/bioattacks. I would like to spend just a few moments to 
outline areas where I think the Federal Government could help 
us perform our jobs just a little bit better.
    Our intrastate terror efforts will include planning, 
training and participation in regular exercises. The National 
Guard, along with other State agencies, is presently focused on 
a comprehensive interagency planning and implementation process 
to help us seamlessly address threats and interface with 
Federal agencies. We are evaluating our communications 
capabilities and finding them a little bit weak. We will be 
asking for Federal assistance to upgrade our communications 
systems to make us more compatible with other State agencies.
    Another area of constant concern is the chronic 
underfunding of counter-drug program. As you remember, I told 
you that is the 100-person team that works with Border Patrol 
agencies on the Mexico border. The Governors' State Plans are 
the mechanism identified by Congress to list the programs and 
missions the State wishes to conduct in support of their war on 
drugs and to identify and request those Federal funds necessary 
to execute the program. The return to full funding in FY03 will 
allow New Mexico Guardsmen to become more effective to counter 
illicit drug and terrorist activities.
    I would also like to address the following issue concerning 
the 22-person Civil Support Team. This team is made up of 
unique capabilities, and right now, we do not have the 
capability to backfill any of those positions ahead of time. If 
we lose a radiological doctor, or somebody with those kinds of 
capabilities, it's very difficult to bring someone in behind 
that person in a timely fashion, to keep that CST team going. 
So we'd request that you entertain the possibility of giving us 
a little backup support, so that we can fill in behind and be 
ready to respond to any kind of danger that would be there.
    Mr. Chairman, in conclusion, I would state that, in 
general, I am pleased with the support we've received from the 
Federal Government regarding our role in the fight against 
terrorism. We in the New Mexico National Guard are very proud 
of our part, and we look forward to continue the efforts to 
protecting the country that we all love. Mr. Chairman, that 
concludes my remarks.
    [The prepared statement of General Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.099
    
    [GRAPHIC] [TIFF OMITTED] T4814.100
    
    [GRAPHIC] [TIFF OMITTED] T4814.101
    
    [GRAPHIC] [TIFF OMITTED] T4814.102
    
    Mr. Horn. Thank you very much.
    If you want to introduce Mr. Busboom, go ahead.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Stan Busboom has more than 30 years of experience in 
security. He is now Division Director of Security and 
Safeguards at Los Alamos National Laboratories. He served in 
the Air Force for 26 years and retired at the rank of Colonel--
although we wouldn't guess it by your haircut today.
    We're very pleased to have you here.

STATEMENT OF STANLEY L. BUSBOOM, DIVISION LEADER, SECURITY AND 
      SAFEGUARDS DIVISION, LOS ALAMOS NATIONAL LABORATORY

    Mr. Busboom. Or my lack of haircut.
    Mr. Chairman, Congresswoman Wilson, and Congressman Udall, 
thank you very much for the opportunity to speak with you 
today. I am Stan Busboom, Director of Security at Los Alamos 
National Laboratory, and in today's testimony, I want to 
provide you with a summary of the immediate actions and on-
going responses to the terrorist threat, following the events 
of September 11th of last year, and how we're interfacing with 
our State and local governments in those efforts.
    On a day-to-day basis, just to give you some background, we 
employ over 400 uniformed officers to protect the 43-square 
miles of Los Alamos National Laboratory. Recruit, train and 
deploy a highly motivated force of men and women whose primary 
focus is guarding our two nuclear facilities, but as well, over 
100 other security areas on the mesas of Los Alamos. The 
typical recruit receives more than 440 hours of intensive 
training before performing any duties.
    Our special response team--those are the SWAT team 
members--receive an additional 360 hours of tactical training 
before they go to do anything. That special response team has 
over 70 members and is fully equipped with military weapons, 
including armored vehicles, M-60 machine guns, grenade 
launchers, and thermal-imaging sensors.
    Along with all Federal, State and local government security 
agencies, we reacted immediately to the events of September 
11th. I'll provide you with a summary of our actions. Vehicle 
screening posts were established outside of our nuclear 
facilities to identify personnel and to provide standoff 
against potential vehicle bombs. Selected roadways, paths, 
parking lots, and fence lines were blocked off with concrete 
barriers, and we began screening all trucks and commercial 
vehicles that were entering the site. Mail and parcel delivery 
were intensively screened, using both x-ray machines and 
explosive-detection machines.
    Increased vigilance was requested of everyone on the site, 
and we began issuing a series of security bulletins to keep our 
employees informed and to direct them to take precautionary 
measures. I would mention that our employees are also a 
substantial amount of the population of Los Alamos County, so 
we were serving two purposes in this security measure.
    Extensive consultations were conducted with the County of 
Los Alamos Fire and Police Departments to predetermine response 
to any incidents and to establish a fresh understanding on how 
to implement the existing agreements for mutual aid in case of 
emergency. We also consulted Forest Service officials and the 
governments of our neighboring pueblos.
    Immediate and ongoing contact was established with the 
Federal Bureau of Investigation, and daily reviews were 
conducted of intelligence from all sources. We consulted with 
the New Mexico Emergency Management Office and briefed them on 
our capabilities and our response plans.
    Finally, we looked at all the potential terrorist threats 
against all the targets we have at the laboratory, and we 
revalidated our protective strategies.
    I will say that one of the most challenging aspects of 
protecting Los Alamos National Laboratory is that we have an 
open site. We have taken extensive measures, since September 
11th, to control our roadways and protect key facilities, but 
it's very manpower-intensive. In the initial weeks following 
September 11th, we had some guards putting in as many as 72-
hours on post per week, a tremendous effort on behalf of that 
guard force, with some cooperation on overtime waivers from the 
union. We never ran into a situation where we had any post 
unfilled. We had plenty of volunteers. There's plenty of 
patriotic folks in northern New Mexico willing to step up to 
this job.
    Having addressed our staffing issues by hiring additional 
people since then, we are also looking at engineering and some 
special solutions. We do have supplemental money this year, and 
by the way, we very much appreciated the supplemental 
appropriation we received to allow us to pay the overtime and 
to design some engineering solutions to our open-site 
difficulties. We are planning to look at two bypass roadways 
that will allow us to control access, and right down to fully 
closing the site, if we need to, similar to the way it's done 
at Kirtland Air Force Base.
    Chairman Horn, there are additional measures that we've 
taken that are classified. And we'd be glad to brief you and 
other Members in an appropriate setting.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Busboom follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.103
    
    [GRAPHIC] [TIFF OMITTED] T4814.104
    
    [GRAPHIC] [TIFF OMITTED] T4814.105
    
    [GRAPHIC] [TIFF OMITTED] T4814.106
    
    [GRAPHIC] [TIFF OMITTED] T4814.107
    
    Mr. Horn. Thank you.
    Mrs. Wilson. Mr. Chairman, here in New Mexico, we are 
blessed with having one of best medical schools in the country, 
and I'd also----
    Mr. Horn. I might suggest that they started the new 
approach, and when Harvard finally got the publicity on it--
that it was New Mexico that started it. And I just was telling 
somebody, last week, this, and what a fine school you have in 
medical matters.
    Mrs. Wilson. See Dr. Roth grinning.
    I wanted to first start by thanking Dr. Roth and his staff. 
This is a University of New Mexico building that we're meeting 
in today, and I wanted to thank you, and Robin and Kathy from 
your office, for helping us to arrange this on fairly short 
notice. I appreciate that.
    We are very fortunate to have someone of Dr. Roth's caliber 
leading the medical school. He has 18 years of experience in 
disaster medicine, as well as emergency medicine. Dr. Roth 
created the country's first-ever civil Disaster Medical 
Assistance Team, the DMAT, within the National Disaster Medical 
System that was established in 1984, when Ronald Reagan was 
president, and since then, the New Mexico Disaster Medical Team 
has developed more experience and capability, through his 
leadership, than--really than any other team in the country. We 
now have the Center for Disaster Medicine at the University of 
New Mexico.
    He has also played a leading role in establishing the 
National Center for Emerging Infectious Diseases, building on 
work that was done at the University of New Mexico on the Hanta 
virus outbreak, rapidly identifying a new disease and 
identifying its source and developing treatment for that.
    We are very pleased to have him here as the head of our 
medical school and so involved in the issues surrounding 
chemical, nuclear and biological agents and their impact on 
populations.
    Dr. Roth.

   STATEMENT OF PAUL B. ROTH, M.D., UNIVERSITY OF NEW MEXICO 
 HEALTH SCIENCES CENTER, ASSOCIATE VICE PRESIDENT FOR CLINICAL 
    AFFAIRS, DEAN, SCHOOL OF MEDICINE, PROFESSOR, EMERGENCY 
                            MEDICINE

    Dr. Roth. Well, thank you, Mr. Chairman, Representative 
Wilson, Representative Udall. I thank you for those kind 
remarks. Harvard tends to copy many institutions, but 
prominently, the University of New Mexico, in that regard.
    It's a pleasure to be here to speak to you today concerning 
the state of our Nation's preparedness with regard to 
biological, chemical and nuclear attack. As was mentioned, I'm 
here not only speaking to you as the dean of the medical 
school, but someone who has a great deal of experience with 
disaster response. And so I speak to you not only from a 
desktop background, but from firsthand experience in the field.
    Just a few remarks regarding the University of New Mexico. 
Our Health Sciences Center and its School of Medicine have been 
actively involved in anti-bioterrorism planning, training, 
related research, and response, for several years. Most 
recently, we have been working very closely with the New Mexico 
Department of Health in planning for the use of the new CDC and 
HRSA moneys. We are also rewriting our Health Science Center 
disaster plan to accommodate biological and chemical events by 
retrofitting elements of our Health Sciences Center hospital 
facilities to serve as a major tertiary care referral center 
with unique capabilities to handle these kinds of special-needs 
patients.
    We are involved, through our Bio-Defense Center, in several 
collaborative projects with the State and Federal Government in 
both national laboratories, all of which are directed toward 
basic public health research in anti-bioterrorism. They involve 
all aspects of controlling the bioterrorist threat, including 
prevention, early detection, and therapeutic intervention. One 
such product is the Animal Development Center, which serves as 
the testing site for DARPA, with ties to USAMRID, and assists 
in the development of promising vaccines and new drug 
therapies.
    Our Center for Emerging Infectious Diseases, that 
Congresswoman Wilson mentioned earlier, was created a year ago, 
with her support, and is focused on emerging infections to 
better understand the disease process.
    And finally, we have established a New Mexico Consortium 
for Bioresearch, that has been formed to conduct collaborative 
and innovative research, with the main focus centered on anti-
bioterrorism. The membership of the consortium includes the New 
Mexico Department of Health, Sandia Laboratories, and UNM.
    Let me comment on some issues related to Federal, State and 
local efforts for preparedness, first with regard to 
coordination and cooperation among Federal agencies.
    I would first like to commend the administration for 
creating the Office of Homeland Security. Although Director 
Ridge has a huge challenge ahead of him in assuring the safety 
of all Americans, the creation of this office is something that 
our country has needed for a long time. I know, from my 
personal experience in responding to natural and manmade 
disasters, that the primary inefficiencies in these response 
efforts have centered on poor coordination and communication 
among the responsible Federal, State and local agencies. The 
only way that Director Ridge can successfully assure the safety 
of our country's citizens is to have the authority he needs 
over the vast array of the agencies involved with bioterrorism 
preparedness and response.
    We must clarify the relationship between the Office of 
Homeland Security and FEMA. Both of these organizations have 
seemingly similar missions, and it is imperative that a 
division of responsibility be outlined.
    Next, with regard to preparation of the Federal, State and 
local emergency management responders to coordinate a response 
to a biological or chemical terrorist attack, in my view, we 
are only in the very early stages of developing a reasonable 
response. For many years, public health capacity has been 
gradually deteriorating, and despite much effort, still needs 
to be reinvigorated with substantial resources. It will take a 
huge effort to reverse this trend.
    And finally, with regard to how Congress and the executive 
branch can address surge capacity in the public health system, 
I would like to emphasize one point, that no discussion 
regarding overall healthcare surge capacity can be complete 
without considering hospital capacity. There currently appears 
to be very little attention placed on the Nation's medical and 
hospital infrastructure. This piece to the complex puzzle of 
assuring our preparedness for bioterrorist acts is, in fact, 
the most critical. There is no minimizing the dire straits that 
our country's healthcare system is in today. Every day, 
hospitals are at capacity and are constantly battling to keep 
their doors open for their patients.
    In New Mexico, we are seeing a progressive deteriorating in 
our hospitals' abilities to admit acutely ill patients. One way 
we monitor our hospital capabilities is to track the number of 
times each hospital diverts emergency patients away to other 
hospitals due to the lack of in-patient beds. In our system 
today, this has been occurring so frequently by so many 
hospitals, that we have had to develop an inter-hospital 
agreement that forces all hospitals to open when they all go on 
divert. That has to occur even if patients have to remain in 
the emergency department for extended periods of time.
    Now we track the numbers of times we must invoke this state 
of forced openings. Over the past 3 years, the frequency of 
forced openings has increased dramatically, indicating an ever-
dwindling ability of our healthcare system to accommodate even 
the normal volume of emergency cases. In fact, Albuquerque 
hospitals are often on divert more hours each week than they 
are open.
    Current hospital admissions data for the State of New 
Mexico shows that there are over 3,000 admissions and 
approximately 10,000 emergency room visits each week. Clearly 
then, the sudden influx of hundreds and potentially thousands 
more patients into this current situation, as a result of 
bioterrorist attack, would result in a collapse of the system, 
not only increasing the morbidity and mortality of these 
patients, but all of the patients ordinarily cared for by 
hospitals.
    That concludes my prepared remarks, and I'd be pleased to 
answer any questions.
    [The prepared statement of Dr. Roth follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.108
    
    [GRAPHIC] [TIFF OMITTED] T4814.109
    
    [GRAPHIC] [TIFF OMITTED] T4814.110
    
    [GRAPHIC] [TIFF OMITTED] T4814.111
    
    [GRAPHIC] [TIFF OMITTED] T4814.112
    
    Mr. Horn. Dr. Sewell came in after everybody else had 
already been sworn in. So we can swear you in. So if you'll 
stand and raise your right hand.
    [Witness sworn.]
    Mr. Horn. Thank you.
    Mrs. Wilson. Thank you, Mr. Chairman. We are also fortunate 
here in the State of New Mexico to have a very strong and 
integrated Department of Public Health and epidemiological 
laboratory. I know that in some States, health departments are 
kind of county by county. Here we have a very strong State-
level Department of Health, and Dr. Sewell is the head 
epidemiologist for the State of New Mexico. He has been there 
as the State epidemiologist since 1989, and brings a wealth of 
experience in the study of disease.
    And it is very much our pleasure to have you here today.
    Dr. Sewell.

 STATEMENT OF CHARLES MACK SEWELL, M.D., STATE EPIDEMIOLOGIST, 
    PUBLIC HEALTH DIVISION, NEW MEXICO DEPARTMENT OF HEALTH

    Dr. Sewell. Good morning. Mr. Chairman, Representative 
Udall, Representative Wilson, it's a pleasure to be here this 
morning.
    My name, again, is Max Sewell. I'm the State 
epidemiologist, Public Health Division, New Mexico Department 
of Health. Secretary Alex Valdez asked me to represent him 
today. He had prior commitments and could not be here. He 
extends his appreciation for the opportunity to testify before 
this committee.
    I have been with the Department of Health here in New 
Mexico since 1984, and State epidemiologist since 1989. My 
training is in epidemiology, public health, and microbiology, 
and I also represent the Council of State and Territorial 
Epidemiologists. I'm on their executive board. This is an 
organization that represents epidemiologists and State and 
local health departments throughout the country.
    I want to thank you for the opportunity to examine how the 
Federal Government is assisting State and local governments 
prepare for a potential terrorist attack involving biological, 
chemical or nuclear agents. The New Mexico Department of Health 
has been working on public health preparedness for bioterrorism 
for over 2 years, funded through a cooperative agreement with 
the Centers for Disease Control and Prevention. In that time, 
we have partnered with other State, local and Federal agencies 
in improving public health infrastructure in the State.
    Contrary to the situation just a few years ago, we now work 
regularly with Federal agencies such as the FBI, FEMA, and our 
national laboratories. Historically, the New Mexico Department 
of Health has worked most closely with the Centers for Disease 
Control and Prevention, which provides funding for many of our 
programs.
    While the action of terrorists may be hard to predict, one 
thing is certain: A biological attack, like the recent anthrax 
scare, would manifest through the medical and public health 
system, and severely overburden the existing public health 
infrastructure. The goals of terrorism are not only to harm 
people but also to spread massive panic and fear throughout the 
population. Chemical and nuclear terrorism would also involve 
the medical and public health system, but would likely manifest 
much differently than a biological event. National experts 
believe that the threat of bioterrorism remains very real and 
necessitates and justifies the action that Congress has taken 
in the last few years to improve our abilities to detect and 
respond to any such event.
    The recent anthrax episodes in Florida, Washington, DC, New 
Jersey, and New York were relatively small events compared to 
both historical examples and potential events. However, they 
clearly dominated the activity of the CDC, FBI, State and local 
health departments, hospitals, and others, for several months.
    I would urge you to consider the importance of a seamless 
response system involving Federal, State and local agencies. 
The recent funding provided by Congress is essential to 
implementing regional and State planning, disease surveillance, 
laboratory capacity, information technology infrastructure, 
communications strategy, and training that is necessary to 
effectively detect and respond to any bioterrorist threat.
    More importantly, the assurance of continued funding is 
essential to allow agencies to recruit and retain staff, build 
laboratory capacity, develop and exercise response plans, train 
medical staff, and develop essential communication plans to 
inform the public. Having dedicated and appropriately trained 
staff is the most important element of public health 
infrastructure for a bioterrorist response and for improving 
public health through other essential services.
    This seamless system also needs to include FEMA, police and 
public safety, fire and emergency medical service personnel, so 
that first-responders and disaster personnel are similarly 
trained throughout the country. We need to have similar 
language and an understanding of concepts between Federal, 
State and local government agencies and between different 
disciplines, such as public health, medicine, public safety, 
for example.
    Last, I would like to make you aware of the need to replace 
the existing laboratory facility that currently houses our 
Scientific Laboratory Division, the Office of the Medical 
Investigator and the Veterinary Diagnostic Laboratory. The 
Scientific Laboratory Division is one of five State health 
department laboratories in the country to have received 
supplemental CDC funding for chemical terrorism. The New Mexico 
Legislature has approved planning and design funds for a new 
quad laboratory building, which would house all of the existing 
functions, as well as the State Crime Laboratory. Replacing 
this aging structure, which has greatly outgrown its existing 
space, with a more modern and secure facility is also a 
priority for us.
    The potential for the quad lab to become a regional 
reference laboratory and to serve the needs of an expanding 
border population is essential to public health and to national 
security. This laboratory can only happen with Federal support.
    Thank you.
    [The prepared statement of Dr. Sewell follows:]

    [GRAPHIC] [TIFF OMITTED] T4814.113
    
    [GRAPHIC] [TIFF OMITTED] T4814.114
    
    [GRAPHIC] [TIFF OMITTED] T4814.115
    
    [GRAPHIC] [TIFF OMITTED] T4814.116
    
    [GRAPHIC] [TIFF OMITTED] T4814.117
    
    [GRAPHIC] [TIFF OMITTED] T4814.118
    
    [GRAPHIC] [TIFF OMITTED] T4814.119
    
    Mr. Horn. Thank you very much. You have a lot of 
information that we need to know and that we need to help you. 
And that is why, to all of you, if you could, take a look at 
our State laws here in New Mexico, or the region, the 
southwest, that would inhibit the sharing of information 
between Federal, State and local officials. We have that 
problem at the Federal level, but it also sometimes occurs at 
the State level, and so if you have something you can put into 
the record in the next few weeks, we'd appreciate it.
    So we can--we'll also have the American Law Division of the 
Library of Congress, and we'll see if we can't find these laws, 
then. We need to do it in advance, and we need to relate to it. 
And we have legislation in, that both Judiciary and Government 
Reform will work with it when we get back there. So that would 
be very helpful, if you would.
    I'm going to ask Mr. Yim, of GAO, to join us, and we'll do 
him after we've had all of the panel. We always ask the 
representative the General Accounting Office to say, have we 
missed something. That's why we have him here.
    Let me ask a few things, and then I'll yield it over to 
Representative Wilson on most of the things. But I have been 
very interested in the laboratory situation in any State, and 
you obviously have a very good and what would be the major 
laboratory here. But if we had a germ warfare thing, or 
anything else, do we have, besides your laboratory, nonprofit 
laboratories that could be able to look at and see what it is 
that's going on? And you don't know, often, for weeks, when you 
have a germ warfare type of thing, and I'm just curious, where 
are the other things besides your laboratory?
    Dr. Sewell. Mr. Chairman, members of the committee, I 
think, obviously, any laboratory and epidemiologic response is 
very much going to depend on the agent and how it were 
dispersed. Of the potential agents, the ones that are on most 
people's lists of possible agents, things like anthrax, 
smallpox, they all have very specific ways they would be dealt 
with.
    One of the interesting things is that our State laboratory, 
some months ago, before the September 11th episode, and then 
subsequent anthrax attacks, sent out some nonpathogenic strains 
of anthrax to clinical laboratories, and they found that not a 
single one of them were able to identify anthrax. Now, since 
then, that has since changed. And there have been additional 
efforts to get better training in clinical laboratories thought 
the State.
    In most States--New Mexico is no exception--specimens are 
frequently referred to the State laboratory, because they 
function as a reference laboratory. Specimens are also sent, 
depending on the situation, to the CDC. Certainly, any suspect 
smallpox cases, specimens, would be sent, automatically, to the 
CDC in Atlanta for analysis, because they have the reagents and 
capability to do so.
    I think that our local hospital labs, and certainly, the 
medical staff, play a key role in recognizing any potential 
event. They're the frontline, and perhaps Dr. Roth may wish to 
followup on that, because that's the real key to recognizing an 
event, is that the right questions are asked, the right 
expertise is brought in early on.
    Mr. Horn. What about the universities and colleges and even 
high school laboratories? If we're trying to find out what 
this--whatever it is, and we don't really know what it will be, 
can they be of help?
    Dr. Sewell. It depends, again, on the situation. I think 
they may be of help. I think that for medical-type testing, the 
greatest level of expertise tends to be in the bigger 
commercial clinical laboratories, the State lab, and certainly 
the university arena. Many of the universities have a lot of 
laboratory testing, but in many other areas.
    Again, there's--I think one of the difficulties with 
terrorism is that one is only limited by one's imagination, 
whether there could be some novel agents or novel chemicals, 
biological agents, but certainly, they tend to fall into 
groups. And the conventional wisdom is that many of the agents 
that would be likely to be used are fairly predictable. And 
they fall into things like anthrax, plague, tularemia, 
smallpox, for the biological agents; there are a whole host of 
chemical agents that potentially could be used. Again, we do 
have good expertise, both at the State lab and at the 
university, in diagnostic capabilities.
    Mr. Horn. Now, if we had such a situation, what's the 
capacity of the State of New Mexico, in terms of beds in 
hospitals and how that would be dealt with? And would the 
National Guard have, perhaps, mobile canvas-type situations 
that you'd have in a wartime; MASH, in essence. And I'd be 
interested to know if we're prepared there.
    Dr. Sewell. I'll take a first pass. I think that New 
Mexico--one of the things we did, several months ago, was a 
survey sponsored by the Department of Justice on capacity. And 
the results of that survey are available. I don't happen to 
recall, off the top of my head, issues like bed capacity and 
county emergency management personnel. But that was assessed 
during that Department of Justice survey. Perhaps Dr. Roth 
could comment, better than I, in terms of the issues of bed 
capacity. And again, what I heard him say, in our discussions 
we had before, is the system is already experiencing issues 
even without a bioterrorist attack.
    Dr. Roth. Mr. Chairman, in response to the earlier 
question, with regard to medical staffs' capabilities, and 
laboratory capabilities, the training that's been already 
implemented in New Mexico for hospital staff and in emergency 
departments around--really, nationally, including New Mexico, 
all would allow us to better recognize, in a fairly early way, 
syndromes that would present in the context of a bioterrorist 
attack. So I think we would be able to be alerted. I think the 
area of greatest need, at this point, is to try to consolidate 
this data through technology and have an opportunity to 
recognize this phenomena much earlier than we might at this 
point.
    With regard to additional laboratory capabilities, the 
medical school currently has four--what are called BSL3 
laboratories, which is the second-highest safety level 
laboratory there is. There are currently discussions underway 
to provide backup to the scientific laboratory, the Department 
of Health's laboratory in the event of the need for that level 
of diagnostics.
    Part of what Dr. Sewell mentioned earlier, with regard to 
the quad services building, is inclusive of a BSL4, at least in 
the very early stages of development, which would permit us to 
go the next step in not only research for vaccines and drug 
development, but again, to help back up the scientific 
laboratories.
    With regard to bed capacity, I guess that's where I tend to 
be the most concerned. It's my belief that we have very limited 
surge capacity for hospitals, as I mentioned in my testimony. 
If we were to deal with--if one were to consider the worst-case 
scenario of smallpox, and even if we had, initially, only 50 
patients that presented to various institutions around the 
State, the nature of that particular disease is such that you 
would anticipate a tenfold next wave of those who have already 
been exposed and contaminated.
    Whether the system could handle 500 or 5,000, I believe, we 
do not have the capability of dealing with that volume, 
considering that about a third of those patients will go on to 
die, even under the best of the circumstances. The necessary 
critical care beds for, hopefully, preventing some of those 
deaths, are clearly not present in the State of New Mexico. I 
don't believe that they are present in any State in the United 
States.
    And that concludes my response to that question, sir.
    Mr. Horn. Well, we'll get back to a few others, then. I 
want my colleagues to ask a number of questions, and then we'll 
get back to, maybe, what the National Guard is planning to do.
    But I do want to throw this in, because we started these 
hearings in Nashville. A very fine university there, just as a 
very fine university here. And one of the things we found out 
was that the communication situation of the military 
helicopters, if you're bringing people to the hospital and so 
forth, and the civilian ones, they can't talk to each other; 
they have a different frequency. So one of the things we've got 
to deal with is how do we connect the civilians and the 
military, in this kind of a situation, so they know what's 
going on.
    Representative Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. And just to follow on 
to that, it's not only the National Guard, but the active duty 
military, here in New Mexico, I would think that if we had a 
national disaster, we would be searching for all kinds of 
capability. In fact, down in Alamogordo, they have a lot of the 
surge sets for overseas deployment, which, if we were to try to 
pull in the event of a national disaster, would be accessible, 
but it's the planning and communication in advance and it's the 
knowledge of what might be available that's often part of the 
challenge.
    General, what I wanted to ask, you mentioned in your 
testimony about the Civil Support Teams, 22-member team, and 
the difficulty of not having the backfill capacity. What needs 
to change, or what authority do you need to have, in order to 
make sure that if you have a radiological doctor that's out of 
service, that you've still got the capacity you need to do your 
job?
    General Randall Horn. Mr. Chairman, Representative Wilson, 
the issue basically becomes that we have no bench, if I can use 
a sports field type of example. We have no bench. If we lose a 
player, for whatever reason, a personal reason or one being 
engaged in the action that they're trained to be involved with, 
is we have no one trained to fill in behind them. Each one of 
these 22 people are specifically trained to do a specific 
thing; there's not a whole lot of overlap between them. For 
instance, the radiological doctor, they're not easy to come by. 
And we have no capability to train someone, even partially, who 
could fill in behind that person should something happen. So 
that's the issue.
    I think the thing that needs to be done is to expand the 
positions on those teams such that we could try and look ahead 
and say, ``Well, is this position''--``is this person looking 
at leaving in the near-term future,'' and if so, it would allow 
us to put somebody into a backfill position, to have them 
trained and ready to move in, if----
    Mrs. Wilson. Is that a question of the authorization of 
those slots that you have available in the Guard, or what 
prevents you from doing that now?
    General Randall Horn. Well, we are specifically restrained 
from hiring more than the 22 people that are in those slots. So 
it's an issue of a manning document, if you will; it's what we 
call a ``manning document.'' We're specifically told how many 
positions we can use to fill against that mission.
    Mrs. Wilson. Thank you.
    Dr. Sewell, what is the difference; how would you expect a 
manmade epidemic, an attack, to be different from a natural 
disease outbreak, and what--as an epidemiologist, you look at 
the progression of disease and how a disease spreads. How 
should we be thinking differently if that's an intentional use 
of disease as a weapon, if you will. How do we need to change 
our thinking for manmade epidemics?
    Dr. Sewell. Congresswoman Wilson, I think that's an 
excellent question. Of course, we've had experience with all of 
these agents that have been discussed, throughout history. I'm 
old enough to have been vaccinated against smallpox, but from a 
professional standpoint, I've never had to deal with it, 
because the disease was eradicated from the globe. I think that 
the issue is that a sinister mind could conceive of a situation 
that could be very disruptive and deadly, depending on how that 
scenario were played out.
    I think a good example would be anthrax. We've dealt with 
anthrax, here in the State of New Mexico, since it's a soil 
bacteria; it's a disease found in cattle. Some of the old 
cattle trails that came up through Texas, on up into Wyoming 
and Montana, the soil is still contaminated. We have 
periodically dealt with cattle, here in New Mexico, that have 
died from anthrax, and the testing at the Veterinary Diagnostic 
Laboratory, here in Albuquerque, part of the quad--or the 
existing laboratory facility, made the diagnosis.
    I think the difference is that a terrorist could--and one 
of the things that came out in the recent anthrax episodes on 
the East Coast, was that, apparently, it didn't take very much 
anthrax, dried spore material, to be widely dispersed and make 
several persons ill and kill several people. And this was a 
learning curve, I think, for the CDC and for others. Who would 
have predicted that sealed envelopes going through mail-sorting 
machines could have made postal workers ill? There just has not 
been a huge amount of experience with this disease.
    There was an episode in the former Soviet Union where there 
was an accidental release that killed, I think, around 65 or so 
cases, something like that. And there have been other, so to 
say, accidents. But I think the difference is that an evil-
intentioned person could release what could literally be a 
small amount of material, if they had appropriate technology to 
release it, could wreak havoc on a large population and kill or 
injure tens of thousands of people.
    Mr. Horn. Let me just ask about this vaccine. I have it. 
You had it. And if you had a rogue government of some sort try 
to get smallpox throughout America, or even in just one city, 
just to make a terror, which is what they're trying to do, that 
vaccine you and I had as little kids, and we didn't have 
smallpox, but would that do us any good at this point, and if 
not, what do we do about it, in terms of vaccine?
    Dr. Sewell. I think that there's still some debate out 
there. Clearly, those of us that were vaccinated as children 
may have some protection, but it's probably greatly reduced 
from the protection we might have had decades ago. I think 
perhaps a bigger issue would be all of our children, who have 
never been vaccinated, who are completely and totally 
susceptible to smallpox. I think the Federal Government, in my 
personal view, has taken the appropriate steps in terms of 
developing stockpile smallpox vaccine, to make it available 
should we need it.
    There are still some issues, I think, that need to be 
worked out between Federal and State and local government. 
State health departments, for instance, cannot access the 
vaccine today. It's under the control of the CDC and released 
only by approval of the CDC director. I think we need to 
reexamine this policy as more vaccine is produced. The current 
vaccine, of course, is one that you just don't want to give to 
everybody, because there are significant side effects of the 
current vaccine. So I think that we need a balanced approach 
here.
    But as more vaccine is produced, I think we should examine 
whether we should, on a State-by-State, hospital-by-hospital 
basis, have a few persons pre-immunized. We need to have a very 
balanced and cautious approach, I would advise.
    Mr. Horn. Thank you.
    Go ahead.
    Mrs. Wilson. Nick, I've wanted to ask you, you mentioned 
the training for first-responders. From your perspective, being 
responsible for all of the first-responders in city of 
Albuquerque, what is the greatest need that is currently unmet? 
What do your people need that they don't now have?
    Mr. Bakas. Mr. Chairman, Representative Wilson, just last 
week, we were at our emergency command center here in 
Albuquerque, on the west side, specifically going through a 
scenario of--I think it was a sarin gas scenario. The training 
that we need and we're trying to develop is how does the first-
responder recognize what they're coming upon. After 30 years in 
law enforcement, I don't have a clue, with respect to an 
anthrax incident, a sarin incident, those types of things. 
Basically, our people would be going in blind. Not only that, 
we have no protective equipment, going into that type of 
situation.
    Our policies and procedures with respect to the command 
center need to be looked at and analyzed for the best effective 
response. This is a totally new area for us, in how to respond. 
This is an issue that we've never had to encounter. And as we 
mentioned, planning is key. We're going to do exercises 
continuously. We're working, as we mentioned, with Dean Roth's 
folks at the hospital to recognize some of these issues, to 
make our officers aware of these issues.
    And in passing, let me also say, I know that General Horn 
mentioned the backfill issue. But let us not forget in our 
conversations this morning, that when the National Guard is 
called up, the individuals you're calling up are police 
officers, firefighters, and corrections officers. So the 
challenge for us is, when they're doing their active duty, we 
still have a city to protect and calls to respond to. So the 
issue for us is a grave issue.
    Additionally, what we must do within our various zones of 
public safety is cross-train. There is absolutely no reason why 
a firefighter cannot perform some law enforcement duties, or 
vice versa. Those types of issues, clearly, have to be 
addressed.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Horn. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    First of all, let me thank you all for coming and tell you 
I think you're all--your testimony has been very, very helpful. 
And I think you are pointing out some things where we could be 
a lot more effective. I think the comment by Dr. Sewell on the 
vaccine and the CDC; in addition, Dr. Roth's comment about 
public health and improving the public health system we've 
created, and I know, Dr. Sewell, that's an interest of yours; 
we've let that languish too long. And it's not only important 
for terrorism; it's important for public health, as we're 
interconnected and we see many of the diseases that are 
spreading, I think, around the world. And this issue that Nick 
just brought up, in terms of equipment and training.
    So I think you're bringing some very important things to 
the table here today. Many of you probably listened to some of 
the earlier panel that were here, and you heard many of these 
Federal agencies that are supposed to be interacting with you, 
supposed to coordinate, cooperate, share information, 
understand and help you deal with these kinds of threats. And 
what I'm wondering is, what type of grade do you give them? I 
don't want this to degenerate into a piling onto the feds 
situation. But what are the areas that really can be improved? 
Where are the areas that we're having problems? And really, the 
thrust of this hearing is how that cooperative effort is going, 
and what thoughts do you have on that? And that's to any of the 
panelists here today.
    Mr. Bakas. In the absence of anybody else speaking, Mr. 
Chairman, Representative Udall, I would give the Federal 
Government, across the board, a C-minus or a D-plus in exchange 
of information. And I think Mr. Dean correctly set out that 
there are different statutory schemes, of which, Mr. Chairman, 
you've already spoken to, that can be undone, that prohibit the 
flow of information. Some information is coming, but it's 
usually very limited and very late.
    Mr. Horn. Any other thoughts on that question? It's a very 
important question.
    General Randall Horn. Mr. Chairman, Representative Udall, I 
think the Federal Government has been doing pretty well. I 
guess I would give them more of a grade along a B. The issues 
that we have in front of us, a year ago, were not even, really, 
contemplated. The issues that we have in front of us today 
require that we quickly throwup some kind of a guard, if you 
will, a preventive measure. But what I think the Federal 
Government needs to start working on now is refining those 
responses to the areas that we think can give us the biggest 
bang for our buck.
    There is no way that this government, whether it be State, 
local or Federal, is going to protect the citizens of the 
United States against a terrorist attack on all fronts. We 
don't have the money, and we don't have the people. So what we 
have to do is carefully decide, what are the areas that we 
think we're most exposed in, and to cover from there.
    But I think what the Federal Government can mostly do is to 
work on the intelligence angle and be ready to respond to the 
perpetrators of the attack. That's where we can get the biggest 
bang for our buck, in terms of making sure that anybody who is 
thinking about doing something knows that it's going to get 
back to them. And if we can identify who that person or that 
group is, that's going to be the greatest thing we can do.
    Mr. Udall. Dr. Roth, you mentioned surge capacity. Is that 
something we only need in terms of a terrorism attack, or is it 
something we need, if you set aside terrorism and the threats 
weren't there and September 11th hadn't happened, is it 
something we need in terms of public health? And how do we 
upgrade that; how do we move in that direction? Do we need 
additional Federal resources devoted to this?
    Dr. Roth. Well, I can speak mostly to the specific area of 
hospital and medical surge capacity, to be distinguished from 
an overall public health surge capacity. I'll let Dr. Sewell 
speak, perhaps, to that question.
    I think, from my personal observations, the ability of a 
hospital and its medical staff to respond to significant swings 
in volume has more or less disappeared. And that capability has 
probably taken, perhaps, 7 to 10 years to occur. And I think 
what significantly dealt a significant blow to hospital 
capacity was the Balanced Budget Act of 97. That had 
significantly reduced resources flowing to hospitals, and the 
basic infrastructure necessary to support the reserves and the 
ability of a hospital to contend with significant volumes more 
or less has disappeared.
    We can deal with a narrow range today, but, certainly, if 
there was either a natural epidemic, a naturally occurring 
epidemic, such as an influenza--it wouldn't even have to be an 
epidemic; a small increase or moderate increase in the volume 
of individuals suffering from influenza, which is not an out-
of-the-box notion, I don't believe the average hospital in New 
Mexico could deal with that.
    The workforce issues for hospitals has continued to 
deteriorate; the ability for hospitals to hire nurses, to hire 
technicians. There's currently enough--or at least early data 
that would suggest that this country will be suffering from a 
physician shortage, and this is in great counterdistinction to 
studies done in the early 90's, that would have suggested that 
there would be a surplus of physicians by this point. And I 
think, as a result of those studies, training programs around 
the country substantially cut back positions and even modified 
the ratio of primary care to specialty programs.
    And all of these factors taken into consideration, along 
with managed care, I think, has not just disrupted, but I think 
significantly rendered the modern healthcare system in the 
United States into a very compromised position, as we currently 
speak. And I do not hold out that much hope that even within 
the next few years, even if there were significant changes, 
that we would see much of a change.
    As to what the Federal Government can do, I think issues 
around reimbursement are obvious, to whatever extent some of 
the impact of the Balanced Budget Act of 97 can be reexamined. 
Other types of regulation that would significantly increase the 
costs of hospitals are the HIPAA regulations, which is 
projected to cost hospitals $7 million in infrastructure costs, 
which could have done as programming. I am encouraged by recent 
statements from the administration in regard to perhaps backing 
off slightly on those issues, while trying to strike a 
reasonable balance to patient safety and patient 
confidentiality.
    But I think, with regard to infrastructure support, other 
grants, personal moneys that are flowing to States for hospital 
capacity are a very nice beginning. I know, in New Mexico, 
we've received under $1 million for all of our hospitals; that 
can go to some extent to support planning and maybe some 
education, but clearly not address capital improvement or 
workforce issues.
    An example would be the reference I made earlier to the 
Health Sciences Center, in rewriting our disaster plan to 
accommodate a potential biological terrorist attack in New 
Mexico. In order to effectively handle patients infected by 
organisms that we are worried about, it would require a 
substantial change in everything from our ventilation system to 
the types of supplies and the training and the preparation for 
our staff. We estimate that would cost nearly $3 million. That 
is only one facility in the State. There would be similar, 
proportionate increases for any hospital in New Mexico.
    Mr. Horn. Any other questions?
    Mr. Udall. Just let me--Dr. Sewell, were you going to say--
--
    Dr. Sewell. I was just going to make a quick followup to 
your question, if I may.
    Mr. Udall. Sure.
    Dr. Sewell. I'm not sure that I could come up with a letter 
grade. I do think that, speaking for the New Mexico Department 
of Health, we've been working with Federal agencies for a long 
time, particularly the CDC, and we have been working with 
Federal and other local agencies, before September 11th. I 
would state, though, that the increased funding that has come 
down in the last couple of years has certainly improved that 
communication, because we now have some resources to do some 
things. We're partnering both with Sandia National Labs and Los 
Alamos National Labs. We're working closely with the 
university; we have been for many years. And we are getting to 
know the FBI.
    I think the concern, though, that I wanted to express was 
in my testimony, and the concern I've heard Secretary Valdez 
express, is concern about whether we have the staying power 
here in this country. There is a lot of concern and interest 
now around bioterrorism and bioterrorism preparedness. Clearly, 
the recent funding that's come down for State health 
departments, in my view, is greatly needed, and we're going to 
do our best to try to put it to good use. The issue, though, 
that keeps coming up is ``Well, will this money be here next 
year and the year after, and so on?''.
    And I realize it's hard for Congress to make a commitment 
way out, on some of these things, but we do clearly need that 
support to continue to allow us to do the things we need to do. 
The concern might be that if no event occurs in the next year, 
will there be pressure then to be reduce some of the funding 
that's coming down. And again, a request that we all stick in 
there for the long haul.
    Mr. Udall. Let me just thank the panel again, and tell you 
that I hope this is an opening dialog with you, about how all 
of us can do our jobs better, and I hope that you will not 
hesitate to let us know how we can work more effectively and 
cooperatively together on terrorism, or any other issues.
    And I'm going to have to excuse myself, Mr. Chairman. I've 
got some other commitments.
    But once again, thank you very much for coming, and thank 
you for your very good testimony.
    Mr. Horn. Thank you very much. We appreciate your coming. I 
know you've got a lot of constituency things to do.
    I want Mr. Yim, on behalf of the General Accounting Office, 
to tell us what we are missing.
    Mr. Yim. Thank you, Mr. Chairman.
    It's very hard to add to the comments of this distinguished 
panel. But as an attorney, let me attempt a few comments, if I 
could.
    First of all, I think that Mr. English points out that what 
we need to do, if we're going to have an affordable and 
sustainable strategy, is to augment existing mechanisms; not 
necessarily build a new bureaucracy. And I think that's exactly 
on point. We need to look at ways that we can adapt existing 
mechanisms, like the wonderful FEMA response that he's talking 
about, to handle the unique situations of terrorism.
    Mr. Bakas points out the need to plan now. I think that's 
exactly right. But one of the things we need to plan, also, is 
to look at regional aid, regional compacts, mutual aid 
agreements, so it's not just a local jurisdiction having to 
plan for every contingency, but to what extent can we bring 
larger regions together to augment our response.
    General Horn talks about the many missions of the Guard and 
the problem of backfill. I think we need to be sensitive to the 
plight of the employers and the individuals, and the sacrifices 
when they perform both their Guard and Reserve duties, and how 
can we make it easier upon them to contribute their skills to 
this national fabric.
    Mr. Busboom talks about the close coordination between the 
private and public sector; absolutely critical. I think it's 
very instrumental for us in looking at what type of Federal 
programs we should design. If we're designing programs that are 
very applicable to State and local governments, they could have 
no applicability to augmenting private sector resources. So are 
we looking at, for example, tax credits issues, or making 
available to the private sector insurance, terrorism insurance; 
it may be harder and harder to get. But that needs to be a 
fundamental examination; when we're augmenting capabilities, 
there's differences between public and private sector.
    Dr. Roth talks about the role of transferring expertise and 
surge capacity. I think that really points out that what we 
need to do is focus on recapitalizing some of our 
infrastructure, as a way not only to augment that capacity, but 
to lessen the likelihood that would be a terrorist attack. It 
could be not only hospital capacity; it could be highway system 
capacities; it could be energy, power distribution line 
capacities. We need to really look carefully at that. And also 
the role of our hospital systems and medical providers in early 
detection and surveillance; not merely response, but giving us 
that extra 24 or 48 hours to respond to a bioterrorist 
activity.
    And finally, from Dr. Sewell, the education role that he 
points out, I think, is absolutely critical. One of the 
problems was just the insufficiency in the activities being 
taken as a result of the anthrax scares, and can we disseminate 
good, good scientific information, so that our policymakers can 
make reasoned choices.
    I think this was a very excellent panel. It's hard to add, 
Mr. Chairman, to their comments.
    Mr. Horn. Let me ask you a question that a lot of citizens 
have told me, and that is, with the various current reactors 
that we have for getting the electricity--Illinois is a good 
example; much of their electricity is generated by nuclear 
forms, and I don't know the degree to which New Mexico has any 
of their energy coming from a reactor. There is certainly one 
in Arizona, I believe. So, if you had some nut that drove a 
plane into the reactor, what would that mean to the people of 
New Mexico? Do we know that?
    Mrs. Wilson. Mr. Chairman, New Mexico does not have any 
nuclear reactors producing power here. We do have research 
reactors at both of our national laboratories, and we've had 
some discussions, at the classified level, with respect to 
protecting their security. And I believe maybe Mr. Busboom may 
be able to discuss that a little bit, although possibly not in 
this forum.
    Mr. Busboom. Mr. Chairman, I'd be glad to followup with you 
this afternoon on that very question, while you're at Los 
Alamos.
    Mr. Horn. That would be fine.
    Now, I mentioned that helicopter example in Nashville, and 
we've had a lot of input from the law enforcement part on the 
frequencies and the broadband, and all that we've got to do to 
get interoperability between these. What are we seeing here and 
to what degree are you able to deal with it, or are you simply 
doing it by region or nationally? And the frequency problem, in 
particular.
    Mr. English. Mr. Chairman, I think we have a number of 
problems across the frequencies. The city of Albuquerque and 
Bernalillo County, where we're at now, utilize an 800 megahertz 
system. The rest of the cities in New Mexico utilize a much 
lower megahertz system. In addition to what General Horn 
alluded to, the fact is that the military units are all on 
separate frequencies. And in fact, current regulations require 
the Guard to have accountability for the property within their 
stores; therefore, it's not even within our ability to provide 
them with radios to reach us on the proper frequencies. So a 
complete relook at this is absolutely essential to our ability 
to have a unified response.
    Mr. Horn. Any other thoughts on that?
    Well, if not, I want to first thank the following people, 
and then I have a closing, that takes about a minute. To my 
left is J. Russell George, the staff director and chief counsel 
for the subcommittee. And our hardworking clerk, Justin 
Paulhamus, is here, and he's setting-up these hearings, so we 
can get things done.
    And we also want to thank the field representative to 
Representative Wilson, and that's Jane Altwies and then Raul 
Alvillar, who is the Field Representative to Representative 
Udall.
    And then Beth Horna, with an ``A,'' Facility Coordinator, 
University of New Mexico Continuing Education, which is this 
beautiful, wonderful place, to have people from throughout New 
Mexico and America, to be in this setting, where you can relate 
to each other and get some ideas. We are really thankful to the 
New Mexico University, and a lot of Beth Horna's team are in 
this building, and if they're around, thanks.
    And the court reporter, of course, is always overworked, 
and that's Lynne Page Rasmussen. There she is. So thank you 
very much.
    I want to thank all of the witnesses. This was the third of 
a series of field hearings that this subcommittee has held 
around the Nation. The goal of these hearings is to learn what 
our government can do to ensure that our Nation is prepared to 
respond to any threat posed to it. The testimony received today 
will help reach that goal. And post September 11th, we truly 
live in a new world. But you're helping us solve some of these 
problems, and I think this is a really excellent panel. So 
thank you.
    And I'll yield to my colleague.
    Mrs. Wilson. Mr. Chairman, I want to thank you again for 
coming to New Mexico and allowing New Mexicans to tell their 
story of the things that New Mexico is doing that then can be 
modeled in the Nation, and things that we need to do in 
Washington to make it easier to get things done here.
    I do want to say that, following this, General Horn will be 
taking us out to the parking lot, where there's a demonstration 
set up by the National Guardsmen and their chem/bio response 
gear. Everyone is welcome to come on out to see what the 
National Guard can do.
    Mr. Chairman, again, thank you for coming to New Mexico.
    Mr. Horn. It's a pleasure.
    OK, we'll follow the general. With that, we're adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]


</pre></body></html>
